<html>
<title> - [H.A.S.C. No. 114-10] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2016 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-10]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

    HOW IS DOD RESPONDING TO EMERGING SECURITY CHALLENGES IN EUROPE?

                               __________

                              HEARING HELD

                           FEBRUARY 25, 2015

                                   
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                              ____________
                              
                              
                            U.S. GOVERNMENT PUBLISHING OFFICE
94-097                           WASHINGTON : 2016                            
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  
                                     



                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
STEVEN M. PALAZZO, Mississippi       DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey

                  Robert L. Simmons II, Staff Director
                Katie Sendak, Professional Staff Member
                 Mike Casey, Professional Staff Member
                         Michael Tehrani, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Breedlove, GEN Philip M., USAF, Commander, Supreme Allied Command 
  Europe and U.S. European Combatant Command.....................     5
Wormuth, Christine E., Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     3

                                APPENDIX

Prepared Statements:

    Breedlove, GEN Philip M......................................    57
    Smith, Hon. Adam.............................................    48
    Thornberry, Hon. William M. ``Mac''..........................    47
    Wormuth, Christine E.........................................    50

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    87
    Mr. Forbes...................................................    87
    Ms. McSally..................................................    88

Questions Submitted by Members Post Hearing:

    Mr. O'Rourke.................................................    94
    Mr. Shuster..................................................    91
    Ms. Tsongas..................................................    91
    Mr. Zinke....................................................    94
    HOW IS DOD RESPONDING TO EMERGING SECURITY CHALLENGES IN EUROPE?

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 25, 2015.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order. Let me welcome 
our members, witnesses, and guests for this hearing on how the 
Department of Defense [DOD] is responding to emerging security 
challenges in Europe.
    In a world and a time full of complex threats facing the 
United States, it seems to me the situation in Europe poses 
peril on several levels; one is naked aggression of conquest. 
We have seen this before in Europe many times in the past and 
it seems to me if history has taught us anything, it is that 
aggression unchallenged in its early stages leads to greater 
costs and greater misery when it must be confronted.
    A second element is--what I believe is an attempt to 
undermine the rules-based international system that has existed 
since the end of World War II. I am among those who are 
convinced that President Putin is working to undermine that 
system in order to replace it with one that is more of his 
liking, and, unfortunately, he has some unsavory allies in that 
effort.
    A third challenge is the tactics that the Russians are 
using in Ukraine. We have heard a lot about ``little green 
men,'' but the various efforts Russia is using to undermine 
Ukrainian security forces, as well as to pull a facade over its 
own involvement, presents a number of challenges to NATO [North 
Atlantic Treaty Organization] and to the United States. We tend 
not to deal with naked lies and subversion and other forms of 
subterfuge very easily.
    I am pleased to be supporting Mr. Smith's legislation that 
would provide defensive lethal assistance to Ukraine. It seems 
to me that any people ought to be able to defend themselves and 
their country. But beyond the immediate crisis, part of what 
this committee needs to think about as we consider funding, 
organizing, and equipping our troops, is how well we are 
prepared to deal with this sort of threat in Europe and 
elsewhere.
    As Europe and NATO grapple with this crisis, as well as the 
growing threat of jihadi terrorists, the world is watching and 
will draw conclusions about what course they will take in 
response.
    Mr. Smith.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And, obviously, that is 
the game-changing issue of the European Command, Russia and 
President Putin's aggressiveness in the Ukraine, and I think 
the chairman summed it up fairly well.
    What Mr. Putin is trying to do is fundamentally alter the 
post-World War II construct in terms of how the world is 
organized. And it is very unfortunate. You know, when the 
Soviet Union broke up and the Cold War ended, there was a real 
opportunity to integrate Russia into that world order which has 
worked reasonably well. And Russia would have been a great 
partner and, you know, history can be written about why that 
didn't work out.
    The bottom line is Russia is now attempting to set up again 
a bi-polar world. They see it as a zero-sum game. What is good 
for the West is not good for them and they are attempting to 
reestablish their power and break away as many people as 
possible from Western influence. And that is bad enough. Worse 
is that they are aggressive militarily in how they go about 
trying to do that.
    We have seen it in Crimea, we have seen it in Eastern 
Ukraine, and the real concern is you read about how Russia's 
top leadership looks at this issue. There is really not much 
reason to believe that they are going to stop. They believe 
this sort of aggression has been rewarded. That they have been 
able to take territory. That they have been able to reestablish 
themselves as a legitimate power on the world stage.
    So confronting that threat is the number one biggest issue, 
and it is not easy to confront. We do not want to start another 
war. We want to figure out some way to stop this aggression in 
a peaceful means. And we have to work with our NATO and 
European partners in order to achieve that. And, yet, that is 
not always an easy process either.
    But it does also raise questions about something I think 
this committee had long assumed, was that we could afford to 
substantially draw down our presence in Europe in order to 
focus whether it was on the pivot to Asia or to focus on the 
rising tide of Islamic extremists in various countries in 
confronting the terrorist threat that that presents.
    Now we realize that our presence in Europe is more 
important than it used to be. So be interested to hear how are 
we properly positioned in Europe to confront this threat. How 
are we aligned with our European allies to, hopefully, you 
know, maximize our assets and theirs, put them together in the 
best way possible? And what is the most logical way to confront 
Putin's aggression. I think that is the fundamental and central 
question that we face in Europe. I look forward to the 
testimony.
    I apologize, I may have to leave a little early. I am 
still, as I said, I am in between hip surgeries. Good news is 
my left hip is getting a lot better. Bad news is my right hip 
is getting a lot worse. But the surgery is coming so sitting 
for extended periods of time is not something I can do so I may 
not be here for the whole hearing, but I do look forward to 
testimony and questions. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 48.]
    The Chairman. Thank you. We are pleased to welcome Ms. 
Christine Wormuth, Under Secretary of Defense for Policy, and 
General Philip Breedlove, Commander, Supreme Allied Command 
Europe and U.S. European Combatant Command. Thank you all for 
being here.
    Without objection, your full written statement will be made 
part of the record. And we would invite you to make what oral 
statements you would like at this point.
    Ms. Wormuth.

 STATEMENT OF CHRISTINE E. WORMUTH, UNDER SECRETARY OF DEFENSE 
             FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Wormuth. Thank you, Chairman Thornberry, and 
Ranking Member Smith and distinguished members of the 
committee. I very much appreciate the opportunity to be with 
you all today to talk about the security situation in Europe 
and our relationship with allies and partners in the region.
    As both of you have noted, in the last 18 months the 
security situation in Europe has changed quite significantly. 
But despite these challenges, Europe is a cornerstone of our 
engagement with the rest of the world and a catalyst for our 
global cooperation.
    Time and again, Europe and NATO have proven to be our 
indispensable strategic partners. We believe that will continue 
to be true and, for these reasons, U.S. engagement in Europe is 
and will remain a vital element of our national security 
strategy.
    It has been almost a year since Russia's occupation and 
attempted annexation of Crimea. Since that time, we have seen 
Russia funding and arming separatists in Eastern Ukraine. We 
have seen direct Russian participation in the fighting. These 
actions, coupled with Russia's continued support of frozen 
conflicts elsewhere, and violations of its obligations under 
numerous treaties, are undermining European stability.
    Russia's actions to undermine the sovereignty of a 
neighboring country and to attempt to change borders and to 
change the international order even, but certainly to change 
borders by force, are unacceptable.
    Russia's aggression against Ukraine challenges our vision 
of a Europe whole and free, which is what we have been working 
so hard on since the end of the Cold War. It changes Europe's 
security landscape, it is causing instability, obviously, on 
NATO's borders, and we are steadfast as a nation in opposing 
Russia's destabilizing actions.
    To do that, we have been working closely with Europe and 
other partners and allies; first and foremost, to impose real 
costs on Russia for its aggressive actions. This has included 
diplomatic isolation and economic sanctions which, combined 
with falling oil prices, are having a substantial and mounting 
impact on Russia's economy.
    We are also taking visible, concrete measures to reassure 
our allies and partners in Europe and to deter further Russian 
aggression. For example, since May 2014, NATO has been 
reassuring allies and deterring Russia by maintaining a 
continuous land, air, and maritime presence and increasing 
military activity particularly in the eastern part of the NATO 
Alliance. These measures are defensive, they are proportionate, 
and they are fully in line with our obligations as NATO members 
regarding allied defense.
    We are also, as part of our strategy, providing substantial 
support to Ukraine as it is dealing with simultaneous economic 
and military crises. Since the start of the crisis, we have 
increased our security-related assistance to Ukraine 
significantly, to both its military, its national guard, and 
its border guard services. And, together, next year, in fiscal 
year 2015, DOD and the State Department will be providing $120 
million to Ukraine as part of the European Reassurance 
Initiative.
    But it is, I think, important to also remember that NATO 
and our European allies are also on the frontlines of the fight 
against ISIL [Islamic State of Iraq and the Levant]. There the 
United States has been leading a coalition of over 60 nations 
across multiple lines of efforts ranging from military 
contributions to humanitarian assistance.
    As part of the coalition military campaign, Europe has been 
stepping up to fill critical roles, particularly in denying 
ISIL safe haven in Iraq and Syria, and helping us build the 
capacity of partners to take the fight to ISIL, including by 
actively striking ISIL targets.
    The threat we see of foreign fighters going into Iraq and 
Syria remains a significant concern for us and for our European 
allies. We are drawing on all forms of our intelligence to 
understand and address the flow of foreign fighters and we are 
working closely with our NATO allies and other partners to have 
an international effort to try to combat this complex problem.
    In addition to the threat of ISIL, it is also, I think, 
important to note that there is significant instability in the 
Middle East and North Africa that also affects NATO's security, 
especially for those allies that are on the southern flank of 
the Alliance. The movement of thousands of migrants to the 
shores of southern Europe can bring instability and sometimes 
violence, particularly because of the transnational criminal 
networks that are involved in human trafficking.
    Finally, as we look beyond Europe, it is also useful to 
reflect on the true strategic partners we have in our European 
NATO allies for a host of challenges that are well outside of 
NATO's boundaries. In particular, I just wanted to note how 
effectively we work together with NATO allies in Africa to be 
part of the international community's response to the Ebola 
crisis.
    Under Operation United Assistance, the Department has 
supported the USAID [U.S. Agency for International 
Development]-led effort to break the back of the Ebola 
outbreak, with the United States focusing primarily in Liberia. 
This mission isn't complete and many lives have been lost but I 
think we can be proud as part of the international community 
with the strong roles that we have played and that European 
allies have played to successfully mobilize all of our 
capabilities to address the emergency.
    Also, in Afghanistan, NATO allies remain our steadfast 
partners in the effort to try to help bring civility and 
security to that country. The Resolute Support Mission, which 
we launched at the beginning of this year, focuses the efforts 
of our NATO allies and other partners on training, advising, 
and assisting the Afghan security institutions at both the 
ministerial and institutional level. Twenty-six of our allies 
and 16 partners are providing forces to the Resolute Support 
Mission, and our allies there have also committed to providing 
sustainment funding to the Afghan National Security Forces 
through 2024, which is going to be critical to locking in the 
gains that we are making there.
    Finally, to do all of this together with our NATO allies 
and to be able to work effectively, it is essential to have a 
robust force posture in Europe. Our U.S. footprint in Europe 
gives us the capability to defend our security interests, to 
enhance trans-Atlantic security, to reassure allies and deter 
aggression which, again, we certainly see in a very marked way 
in recent times.
    In a time of limited resources, however, the United States 
has to be more innovative and explore new posture arrangements 
by increasing our flexibility, our adaptability, and our 
readiness.
    If sequestration returns, and this is something I am very 
personally concerned about--our ability to sustain our posture 
in Europe is going to be at significant risk. If sequestration 
returns, our ability to continue to invest in the capabilities 
we need and to maintain the readiness levels we need to be able 
to effectively respond to crises is going to be at significant 
risk.
    This is a very serious concern. I know it is one that many 
of you share and we look forward to working with this committee 
and with Congress more broadly to try to find solutions to 
these budgetary pressures so that we can maintain the U.S. 
military as the world's finest military force.
    Thank you very much for your time today, and I look forward 
to questions.
    [The prepared statement of Secretary Wormuth can be found 
in the Appendix on page 50.]
    The Chairman. Thank you.
    General.

STATEMENT OF GEN PHILIP M. BREEDLOVE, USAF, COMMANDER, SUPREME 
   ALLIED COMMAND EUROPE AND U.S. EUROPEAN COMBATANT COMMAND

    General Breedlove. Chairman Thornberry, Ranking Member 
Smith, distinguished members of the committee, thank you for 
the opportunity to testify today.
    It is an honor to appear before you representing the 
dedicated soldiers, sailors, airmen, and marines and our 
civilians of U.S. European Command [EUCOM]. Thank you for all 
you do to support them as they serve our Nation.
    I am particularly happy to be here today with Under 
Secretary of Defense for Policy Christine Wormuth.
    Compared to just one year ago, Europe faces a very 
different and much more challenging security environment. Our 
top concern is a resurgent Russia. A Russia attempting to 
exercise power and influence through the use of force and 
intimidation. Russia is blatantly challenging the rules and 
principles that have been the bedrock of European security for 
decades. The challenge is global, not regional, and enduring, 
not temporary.
    Russian aggression is clearly visible in its illegal 
occupation of Crimea and in the continued armed conflict in the 
Donbass, or Eastern Ukraine.
    The best way to bring the conflict in Ukraine to an 
acceptable lasting solution is through a political settlement, 
one that respects state sovereignty and territorial integrity. 
But what we have seen recently and, frankly, over the course of 
the whole conflict, gives us cause for concern.
    Russian forces have supplied separatists with heavy 
weapons, training and mentoring, command and control, artillery 
fire support, tactical and operational-level air defenses; more 
than 1,000 pieces of Russian military equipment have been 
transferred into Ukraine, including tanks, armored personnel 
carriers, heavy artillery pieces, and other military vehicles 
and equipment.
    And in a number of cases, when the separate offensive or 
operations were stalled or were threatened, Russian regular 
forces themselves intervened to right the course. Just this 
month, Russian forces fought hard to change the facts on the 
ground just before the cease fire was scheduled to take effect.
    These are not the actions of a good faith negotiating 
partner. Actions matter much more than words, and what we see 
in the fight on the ground and in the diplomatic efforts 
designed to resolve it, is a revanchist Russia that does not 
play by international rules or norms.
    The crisis in Ukraine affects more than just Ukraine. 
Russian activities are destabilizing to neighboring states and 
to the region as a whole. Russian illegal actions push 
instability closer to the boundaries of NATO. As President 
Obama has clearly stated, the United States will uphold its 
Article 5 commitments under the Washington Treaty.
    In turn, Russia is learning lessons from our responses to 
their actions. If they feel rewarded by the outcomes, this 
might embolden them to try them again elsewhere. And the rest 
of the world, states and non-state actors alike, are also 
keeping eyes on how these events unfold.
    For the longer term, it makes sense to aim for a new 
Russia-U.S. relationship and a new NATO-Russia relationship 
that are based on mutual respect and shared interest. A Europe 
whole, free, at peace, and prosperous, is a vision that would 
benefit everyone. And it would offer the best possible long-
term protection of U.S. national security interests.
    At the time same, Europe also faces a surge of violent 
extremism. The executions and other brutal actions that ISIL 
has carried out show their total disregard for human life. 
European nations are rightly worried about foreign fighters 
returning home to Europe from the fight in Syria and Iraq with 
new skills and with malign intent. Attacks like those in 
France, Belgium, and Denmark are only likely to become more 
frequent.
    Foreign fighters are part of a much broader pattern of 
insecurity in Europe's south, with its roots in the Middle East 
and North Africa, with flows of migrants and criminal transit 
routes. The spread of instability into Europe and the reach of 
transnational terrorism could have a direct bearing on the 
national security and the U.S. homeland. These challenges are 
transnational. To solve them, nations need to work together and 
our civilian and military institutions are and need to continue 
to cooperate.
    EUCOM is working with European nations bilaterally and 
supporting NATO Alliance initiatives to meet and counter this 
new and more complex security environment.
    Based on the decisions made at NATO's Wales Summit last 
year, the Alliance is adapting in order to improve its 
readiness and responsiveness. The Readiness Action Plan, or 
RAP, is well underway. Our allies are stepping up, making 
contributions and investments that give them a real stake in 
the outcome.
    The United States will have a key and sustained role to 
play supporting and enabling these changes, especially in 
critical areas that are the hardest for our allies to provide 
like lift, sustainment, and enablers such as ISR [intelligence, 
surveillance, and reconnaissance]. At the same time, our own 
U.S. efforts in Europe remain utterly essential, more important 
now than at any time in recent history. With Russian troops 
illegally occupying Crimea, soldiers from the 173rd Airborne 
Brigade in Europe deployed to the Baltic States in Poland with 
only 96 hours' notice to reassure our allies and our Air Force 
began flying missions out of Poland within 18 hours of notice.
    The reason that we could respond so quickly is that we were 
there forward and ready. There is simply no substitute for our 
forward force presence in Europe. It is the bedrock of our 
ability to assure our allies, to deter real and potential 
adversaries, and to act in a timely way should deterrence fail.
    That forward force presence ensures that EUCOM can play a 
full array of essential supporting roles for other combatant 
commands from neighboring AFRICOM [U.S. Africa Command] and 
CENTCOM [U.S. Central Command] to STRATCOM [U.S. Strategic 
Command] and TRANSCOM [U.S. Transportation Command]. And it 
supports all the other critical facets of EUCOM's mission, 
including, very importantly, fulfilling our commitment to the 
defense of Israel.
    Rotating presence is no substitute for permanent forward 
presence in the building of relationships or signaling of our 
commitment. But genuine and fully funded rotational presence 
can play a very important role in helping to meet requirements 
in our theatre if it is heel-to-toe and fully resourced.
    The budgetary challenges and resourcing tradeoffs that we 
face now, based on the Budget Control Act, have already forced 
EUCOM to assume risk. Our timelines are longer, our 
preparations are less robust, and our fundability to deter and 
defeat in a timely and effective manner is less sure than it 
could be. The security challenges in and around Europe are only 
growing sharper and more complicated at the same time.
    Your support of EUCOM's mission and your efforts to chart a 
longer-term path toward properly resourcing defense are 
critical steps to ensuring the ability of EUCOM to protect and 
defend its nation and do its mission.
    Thank you for your time and your attention, and I look 
forward to your questions.
    [The prepared statement of General Breedlove can be found 
in the Appendix on page 57.]
    The Chairman. Thank you. Thank you both for your testimony.
    General Breedlove, you heard me mention at the beginning 
that I support Mr. Smith's legislation that would require 
defensive lethal assistance be provided to the Ukrainians. Have 
you provided options to the administration for various kinds of 
weapons and equipment that could be provided to the Ukrainians 
that would make a significant difference in their ability to 
defend themselves and, part b, is if a decision were made, how 
long would it take to get it to them?
    General Breedlove. Chairman, thank you for the question. 
And these are important things, especially the second part as 
it relates to how this would play out.
    So what we have seen across the last year in discussing 
these issues with Ukraine is a very consistent picture of the 
things that they tell us they need to move forward in their 
struggle.
    Additionally, the U.S. European Command has had a series of 
broad and deep conversations across all of the aspects of 
military business with the Ukrainian military and their defense 
ministry. And what we have observed about Ukraine is very 
consistent with what Ukraine was telling us about Ukraine.
    And so, Chairman, I have advised to my chain of command 
those things that we have learned in these discussions and 
talked about, categories of things that the Ukrainians would 
need.
    All of these options have timelines. Some timelines are 
short and some are longer. It is pretty straightforward. Small 
arms and some of the other things that you might consider are a 
very short timeline. Longer, more sophisticated capabilities 
take training, they take delivery, et cetera, so there is a 
mixed bag, I think is the best way to answer your question, of 
not only delivery, but training required to bring things to 
fruition.
    The Chairman. And I appreciate the point about training. 
Obviously, that takes some time. I am also--remember that in 
this room just a couple weeks ago we had the King of Jordan who 
said that he is incredibly frustrated when equipment and 
weapons he has requested have been approved but our own 
bureaucracy still takes so long to actually get the things 
delivered. And so my offer to you is that I hope a decision is 
made one way or another soon. If there is something that we can 
do to speed delivery once that decision is made, whether we 
force it or the President decides on his own, then we want to 
do that.
    Ms. Wormuth, let me just ask you briefly. This 
administration probably before your time made a big deal about 
a reset of Russia--of relations with Russia. Even the policy 
folks in the administration admit that didn't really work out 
very well, right?
    Secretary Wormuth. Chairman, what I would say is the reset 
policy did bear some fruit. For example, we were able to 
successfully negotiate with the Russians at that time the New 
START [Strategic Arms Reduction Treaty] treaty which was very 
much in our interest as well as being very much in Russia's 
interests, and they are continuing to comply with that treaty.
    We also were able to cooperate with them to maintain the 
Northern Distribution Network which we very much needed to 
achieve our objectives in Afghanistan. But I would certainly 
say that at this time, we are much more in a posture of needing 
to reassert the importance of deterrence and our Article 5 
obligations with NATO vis-a-vis Russia.
    The Chairman. Well, I appreciate it. I think, as you know, 
we will have continuing conversations about whether Russia is 
meeting its arms control obligations across the board, and I 
think there is considerable doubt about that. But that is for 
another time.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, both 
of the witnesses, for being before us.
    I was just in for a NATO parliamentary meeting and I was in 
Turkey with Mr. Turner and Colonel Cook, so I won't ask a lot 
of questions. But I do have a couple of them.
    The first one is this whole issue of trying to counter ISIS 
[Islamic State of Iraq and Syria] recruiting through the social 
media, especially to the young people who we see going. What is 
the military and what--you know, how are we working with our 
European allies, in particular, to ensure that this recruitment 
isn't going on, not just in the United States but, of course, 
in Europe.
    And then my second questions would be with respect to 
Turkey who we know at this point is a key NATO ally, has been 
for a while. We have had our ups and downs in that 
relationship. It is alarming to see recent reports of the 
Turkish government turning a blind eye to arming some of the 
extremist groups like al-Nusra and--some of these reports even 
suggest that they help groups to capture Syrian towns from the 
Syrian army with the use of artillery to move in and out across 
the Turkish border, et cetera.
    So while we are all concerned about ISIS and its great 
cancer in the region, groups like al-Nusra and its allies are 
not far behind from that. So can either of you comment about 
what we are seeing there on the ground and what we intend to do 
about it? Thank you.
    Secretary Wormuth. Congresswoman, on the issue of ISIL 
recruiting and their very effective use of social media, it is 
certainly--ISIL has been remarkable in its effective use of 
social media and we are working very hard, as a whole-of-
government effort, to try to be more agile in countering that.
    And it really is--first and foremost, the center of gravity 
on that really needs to come from within the region and come 
from figures that have credibility with the Muslim community. 
And so, in many cases, the Department of Defense is playing 
more of a supporting role in trying to counter those recruiting 
efforts.
    But what we are trying to do--I mean, a lot of what makes 
ISIL effective with its recruiting, unfortunately, is its very 
barbaric ideology and the fact that they have been, up until 
recently, able to demonstrate progress on the battlefield and 
they have sort of used that momentum to make themselves 
attractive to potential recruits.
    To try to counter that in the Department, we are working 
already, but want to do a better job of being able to show the 
successes that the coalition and the Iraqi forces are having on 
the ground, again, to try to counter ISIL's message that they 
have the momentum. And the fact that the Kurdish forces in 
Kobane, for example, were able to defeat ISIL.
    You know, we were able to make very good use of that, for 
example, and again, in some of the recent operations in 
northern Iraq, where we have seen the Peshmerga, in particular, 
make progress, we want to try to leverage that, from the 
military perspective, to try to blunt the effectiveness of 
ISIL's use of social media for recruiting.
    Ms. Sanchez. Right. And that might require maybe an off the 
side conversation at some point about what we are really doing.
    The last question, of course, General, Turkey, these other 
groups, slippery border armies--I have some of my constituents 
of Turkish decent coming in with pictures of ISIL-type people 
with armaments stamped Turkish Army. What is going on there?
    General Breedlove. Congresswoman, thank you.
    I am not personally aware of what you have talked about, 
but what I will do is go back and take a hard look at this and 
offer to come to you in a classified engagement.
    I would tell you that--you and I have actually talked about 
this before; Turkey is a great mil-to-mil ally and that is 
where I am focused. Our mil-to-mil relationship is as good as 
it has ever been and I think you are aware we have had a few 
successes this week in things that we have asked of them to 
move forward, both in Syria and Turkey.
    But allow me to take the real meat of your second question 
and come back to you.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Thank you, Mr. Chairman.
    And, Madam Secretary, General Breedlove, thank you for 
being here and your service to our Nation.
    Madam Secretary, you were mentioning in some of your 
comments about sequestration and we have heard this before, 
from outside think tanks who have testified, as well as 
military and administration officials like yourself.
    I think we all know that we are looking at some major, 
major decisions forthcoming. My concern is that it is almost 
like we know that we have a problem, but we are not willing to 
deal with the problem.
    General Breedlove, I have great respect for all of our 
military services. I know the stress you all have been under, 
as it relates to budgets, and this brings me to the point I am 
trying to make.
    First of all, Madam Secretary, has this administration 
brought in inspector generals, like John Sopko, to talk about 
the waste, fraud, and abuse in Afghanistan?
    You made mention in your comments that things in 
Afghanistan; we are going to be there to 2024. That is the 
agreement that the President signed with the Afghan government. 
And yet, the waste, fraud, and abuse continues to go on and on. 
Well, that takes away from the military and their needs.
    I have said many times that I just do not see how this 
country can continue to do what is necessary to maintain a 
strong military, unless there is some debate in the Congress 
about a war tax, because I don't know where the money is going 
to come from.
    If we don't level with the American people in this very 
unsafe world that we live in, if we want to win the war or 
protect Americans then we cannot continue to go into deficit 
situations. And this committee is probably tired of hearing me 
saying it, but we are $18.1 trillion in debt.
    And every time I have been told that we--bomb in Iraq for 
about an hour is $300 million an hour. So, I mean, at some 
point in time, I think the administration has got to say to 
Congress, we have got to pay for this war. And it is unfair for 
the American people not to have a Congress that is willing to 
do what is necessary to rebuild and strengthen our military.
    I would like to know your--excuse me; your feelings, as 
well as General Breedlove's, because you can't do the job if 
you don't have the armaments. If you can't afford to buy the 
bombs, you can't bomb. And that is where I am concerned, not 
just for these few months in front of us, but for the years, to 
2024, using the time in Afghanistan. Any comments?
    Secretary Wormuth. Congressman, let me to try to address 
some of the points you raised in sequence.
    First, just to clarify, because I certainly don't want to 
have misled the committee; our NATO allies and other partners 
in Afghanistan have committed to financially continue to help 
sustain the Afghan National Security Forces through 2024.
    As I think you all are very aware, President Obama has made 
clear that our military forces will be drawn down to a Kabul-
centric footprint by the end of 2016. So I don't want to imply 
that we are contemplating keeping our military there through 
2024. That is just an issue of providing funding to try to help 
the Afghans pay for the security forces they need.
    We are very much in contact with, for example, John Sopko, 
the Special Investigator for Afghanistan. General Campbell and 
he work very closely together. We take the concerns that he 
raises and look into them very deeply and where there is 
clearly, for example, waste or fraud or abuse, we do everything 
we can to try to address that.
    I think your point about how we pay for the military we 
need is well-taken and I think you will hear, when Secretary 
Carter comes up here I think in the near future, to talk about 
the overall budget request for fiscal year 2016, he is going to 
be emphasizing that, just as we come to come to Congress and 
ask you all to support our Defense budget request, we have a 
responsibility to do everything we can to reform how the 
Department of Defense operates so that we are making the best 
use of those Defense dollars.
    And we have been trying to do that, for example, with some 
of the proposals we have made to try to adjust our 
compensation, for example, or requesting authority for base 
closure. But Secretary Carter and his team; we are very aware 
that reforming how we do business is a key part of making sure 
that we are able to spend the resources that we have in an 
effective way.
    The Chairman. Time of the gentleman is expired.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses.
    General, in your opening remarks, you used the term 
resurgent Russia, which--I would just like to explore that with 
you for a minute.
    I mean, obviously, a big part of the resurgence is more 
investment in military spending by the Russian government. I 
just wonder if you could sort of walk us through what 
capabilities and forces have been the focus of that change.
    General Breedlove. Thank you, Congressman.
    And what we don't want to do is overstate. You know, that 
has happened in the past, that we used to talk about a 10-foot-
tall Russia. But what Russia has done, over the past 5 years, 
has steeply ramped up their investment in their military, 
period.
    We see a strong commitment to their nuclear forces in 
upgrading their nuclear forces, making them more survivable and 
then making the bench deeper. So a strong emphasis on their 
nuclear forces.
    And then, what they have learned through the years. As you 
know, when they went into Georgia, it didn't go real well for 
them and they learned some tough lessons. And so they have 
addressed those lessons in their conventional forces and they 
have invested in their mobility, their readiness; they are 
training them to a higher level and they are outfitting them 
with new equipment to make them more capable when they take the 
field.
    So it is sort of a bifurcated path, strong emphasis on 
nuclear weapons, and then the kind of money that you would 
smartly invest in order to bring up the readiness and 
capability of their conventional forces.
    Mr. Courtney. So, you didn't mention naval arena and I--you 
know, obviously, there have been news reports about, you know, 
them sort of showing up near U.K. [United Kingdom] and you 
know, our Scandinavian allies and some talk about, you know, 
boosting their shipyard capacity.
    I was wondering if you [could] talk about that a little 
bit.
    General Breedlove. Yes, sir.
    I am sorry; I lumped air, land, and sea into conventional. 
And to make the point, they have invested in all three. They 
have made strong investment in their land forces, which is what 
you see playing out on the border of Ukraine now.
    They have made strong investment in their aviation 
capability and they are doing the same thing with aircraft that 
they are doing with their naval forces. The investment in the 
naval forces is, again, sort of split; a good emphasis on their 
submarine forces and their nuclear submarine forces, as well as 
their conventional forces.
    But what we see with the more surface navy is just bigger, 
better, exercises, training, more out-of-area operations, as 
you saw the Kuznetsov carrier go all the way into the Eastern 
Med [Mediterranean] and have about a 30-day rotation in the 
Eastern Med. Haven't seen that in a long time; so they are 
investing there.
    Mr. Courtney. And you know, part of the events with the 
Crimean takeover was that they actually, at least for some 
short period of time, seized a number of Ukrainian naval 
vessels. What is the status of that? Did they return any of 
those or did they just enlarge their force by keeping them?
    General Breedlove. Several were kept. Several of the very--
lesser-capable vessels were given back. At least one, maybe two 
were scuttled, in order to block the entrance and exit from the 
harbor in Sebastopol.
    The main combatant that was retained by Ukraine is their 
flagship, which actually was out of area on a NATO operation 
during the time.
    Mr. Courtney. And so, in terms of our response and our NATO 
allies' response, in terms of, you know their naval forces; can 
you talk about that a little bit, in terms of what is happening 
right now?
    General Breedlove. So, as a part of the assurance measures 
that we have done that the Under Secretary talked about, we 
have upped our presence in the north and in the south in our 
naval presence, so our standing naval group and our standing 
naval mine group showing a stronger presence in the Baltic 
Seas.
    And then, in the south, we have had, not a constant 
presence, but almost constant presence in the Black Sea. 
Originally, in the beginning, by U.S. forces, and now NATO 
forces are folding in with us, so that we keep a NATO or U.S. 
presence in the Black Sea.
    We have done several exercises in the Black Sea, with the 
navies, our NATO navies there, and Ukraine has participated in 
those exercises.
    Mr. Courtney. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you.
    And, Ms. Wormuth, a few weeks ago, the chairman put 
together a round table with some of the best defense planners 
and strategists in the country and they all concurred that it 
would be fair to categorize Mr. Putin as opportunistic.
    That means he would see an opportunity like Ukraine, move 
in there, then evaluate it, based on the responses, for his 
next movement; that the Chinese were long-term strategists, but 
that the United States has become more reactionary, and they 
felt that one of the biggest weaknesses we had now was a lack 
of strategy.
    When I listen to the chairman correctly talking about the 
need to perhaps give defensive [lethal] assistance, weapons and 
equipment, to the Ukraine now--Ukraine government, I am 
concerned because, for the longest time, this administration 
would not even allow our military to give information, which is 
kind of the baby step before you do anything else, to the 
people in Ukraine.
    We couldn't tell them about Russian troop movements, 
capabilities, locations, all of those kinds of things. In 
hindsight, was that an incorrect strategy?
    Secretary Wormuth. Congressman, I think at the time, we 
made decisions about what kind of support to provide and what 
kind of intelligence to share, based on the situation on the 
ground at the time.
    We are--for several months, certainly, have been providing 
considerable intelligence to Ukraine.
    Mr. Forbes. But what was your strategy, for so long, not 
giving them that information; in fact, prohibiting that 
information from being given?
    Secretary Wormuth. We were giving them information we 
thought would be useful to them and would help them respond----
    Mr. Forbes. You didn't think that the location of where the 
Russian troops and the size of the troops and those kind of 
things would be important to the Ukraine government?
    Secretary Wormuth. To my knowledge, Congressman, we were 
providing intelligence.
    Mr. Forbes. Can you check that and verify that for us?
    Secretary Wormuth. Yes.
    Mr. Forbes. Please give it back to us on the record.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Forbes. Second thing is talk about this resurgent 
Russia. Many of us were concerned when the Russians asked us to 
pull our missile defense systems out of Europe and this 
administration said sure, we will do that.
    Two questions; in hindsight, was that a bad strategy? And 
secondly, where did you put the additional resources to fill 
that gap?
    Secretary Wormuth. Congressman, the European Phased 
Adaptive Approach that we have for missile defense in Europe is 
a very strong approach to deal with the missile defense threats 
that we face, which are primarily from North Korea, with their 
nuclear program, and to posture us to be able to prevent or 
defend against a potential future Iranian threat.
    We have made the investments needed to support that 
program----
    Mr. Forbes. Can you tell me where you made those 
investments? And if you don't have them now----
    Secretary Wormuth. Certainly.
    Mr. Forbes [continuing]. Would you supply that, because I 
haven't seen where you put those dollars. We put it on the back 
of the Navy, but we continue to wait for when you are going to 
give those additional resources to do it.
    Maybe you could just--if you would, just supply it for the 
record. And again, if you would tell us what your strategy was; 
whether or not a gap has been left because you have done that.
    [The information referred to can be found in the Appendix 
on page 87.]
    Mr. Forbes. And then, General, the question I would ask for 
you, in follow-up to Mr. Courtney's question about the Navy, 
you know, Europe used to be a hub for our Navy and over the 
last decade, maybe two decades, we have allowed our naval 
presence to decline considerably.
    Based on what we see with Russia now, where do you see us 
going forward? Is there going to be a new level of demand, 
perhaps, that our Navy has? And if so, can you give us a little 
bit of definition of what you think that might look like?
    General Breedlove. Congressman, as you know, this is one of 
the places where our force structure in Europe is growing.
    We have received two of the Aegis destroyers that will go 
into Rota and we have two more that are on schedule to come to 
us. They will be a multi-mission ship, but they will also be 
dedicated to missile defense, because that is their core 
capability. So the U.S. presence in Europe is growing.
    But you rightly question that--are we taking all the right 
steps and here is what I would say. We are making a strong push 
with our NATO allies to better cooperate and bring them into 
these assurance measures and the changes that we are making to 
NATO, because you are----
    Mr. Forbes. General, I would just point out; if we are 
going to do this so-called pivot to the Asia-Pacific area and 
if we see this increase in Europe then we are going to have to 
increase our naval presence if we are going to be able to do 
that.
    And on the ships we are talking about, we really didn't add 
resources to that. We just shifted ships around, which is a big 
difference than adding resources.
    And with that, Mr. Chairman, I yield.
    The Chairman. Ranking Member.
    Mr. Smith. Thank you, Mr. Chairman.
    The big concern with Russia is what would they do next. I 
mean, obviously, we are focused on the Eastern Ukraine right 
now, but most of the speculation is that, unchecked, this leads 
to further problems.
    What would they do next? What are you guys most fearful of? 
Where might they try their little-green-men strategy next, if 
Eastern Ukraine were to be resolved in their--yes; in their 
favor?
    Secretary Wormuth. Congressman, I think we have probably 
two primary areas of concern, in terms of where might Russia go 
next.
    First is they might go to countries who are not part of 
NATO; for example, Montenegro, some of the smaller countries, 
and try to, again, create some instability to try to use some 
of the information operations; techniques that we have seen 
them use very effectively in Ukraine.
    And we are working through the European Reassurance 
Initiative, for example, to provide support to countries like 
that, to be able to help them to resist those kinds of 
activities.
    Similarly, we also have concerns about the potential for 
Russia to try to destabilize actual NATO member countries, 
particularly, I think, the Baltics or--because, again, those 
countries have sizable ethnic Russian populations.
    So, again, we have been very, very clear and I think Putin 
understands that we are completely committed to upholding our 
Article 5 obligations and that to cross that line would be an 
extremely substantial step.
    But we are working in a variety of ways to try to help 
countries, whether inside of NATO or whether partner countries, 
be able to resist that kind of destabilizing activity.
    Mr. Smith. And at this moment, of those possibilities, are 
there hints that he is moving in one direction to implement one 
of them or is it just pretty much, at this point, speculation 
or have there been active steps that Russia has taken that give 
you concern about one of those specific examples that you 
mentioned?
    Secretary Wormuth. From what I have seen, we don't have--
there are not significant active steps. I have not seen 
anything, for example, in intelligence that would indicate 
that, but I would ask General Breedlove to comment.
    General Breedlove. Sir, I would just step back.
    I know that your question was really next after Ukraine, 
but think we also need to think about next inside Ukraine, 
because I don't think any of us are sure that he has 
accomplished his objectives inside Ukraine next and so that 
would be my first next.
    And then there might be some revisits. For instance, we 
start to see a more Western-leaning Moldovan government and 
Russian troops in Transnistria are there to keep Moldova from 
leaning to the West and so there may be some revisit in 
Moldova.
    And I think what we should do is watch first where we see 
strong information campaigns picking up. And that is happening 
in Moldova and other places now.
    Mr. Smith. Understood. And how do we change this mindset of 
Russia? Part of the--you know, reason for the chairman and I, 
you know, doing the bill that we did to give Ukraine greater 
position to defend themselves is to sort of up the military 
cost.
    I mean, obviously, if, you know, the Russian military 
decides to go, you know, full-force, no matter what we do, you 
know, they are--Ukraine is no match for them. But the higher 
the cost, the less likely, in my way of thinking, that he would 
try this in the future. And yet, the administration has been a 
little reluctant to cross that line and do that.
    And I understand, you know, we don't want to, you know, 
escalate, but on the other hand, if it was more costly, if it 
did mean that Russia would have to, you know, commit more 
troops, more weaponry, lose more of their soldiers; wouldn't 
that be a discouragement for them to do something in Moldova or 
in Montenegro or any of these other places that you have talked 
about?
    Secretary Wormuth. Congressman, I think that is exactly 
right, in the sense that we are--a key part of our strategy 
vis-a-vis Russia right now is to impose costs on them, 
diplomatic costs, economic costs, and then also to provide 
support to Ukraine. We are--as you know, I mean the President 
said, I think just before the Munich Security Conference or 
just after, considering all options.
    We don't want to take options off the table and there is 
discussion of providing defensive lethal assistance, in an 
effort to, again, raise costs on Russia; not, I think--not from 
the perspective at all of being able to fundamentally alter the 
military balance between Ukraine's military and Russia's 
military, but to try to give Ukraine more ability to defend 
itself against the separatist aggression.
    The Minsk agreements have now been signed and we very much 
want to see those upheld. Obviously, experience to date gives 
us, I think, pause, and actions are going to speak much more 
loudly than words.
    So, as we watch whether those agreements are going to be 
upheld in the coming days, if we see continued violation and 
continued aggressions--pardon?
    Mr. Smith. I see no reason to for a second believe that 
they will be upheld.
    Isn't it rather clear at this point that Putin's strategy 
is to use that negotiation to neutralize Europe from, you know, 
fully engaging and helping, meanwhile continuing to do exactly 
what he wants to do?
    I mean, is there any counterargument to that 
interpretation?
    Secretary Wormuth. We are very concerned and I think 
skeptical of whether this agreement will be upheld. And if it 
is not, we will again look at measures to impose additional 
costs. So I think we--that conversation is still ongoing and is 
very active.
    Mr. Smith. I think we can pretty much count on it not being 
upheld, so we should start planning.
    Because--it is part of the strategy. It is sort of slow-
rolling it, you know, keeping them at bay as he moves through 
the Eastern Ukraine as he sees fit, so that is something we are 
going to have to do.
    Thank you. I am going to yield back.
    The Chairman. Thank you, sir.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    General Breedlove, good to see you. Thank you for your 
comments before the NATO Parliamentary Assembly and the Munich 
Security Conference.
    You have been a great voice of trying to give us clarity in 
this time period of what you have described as hybrid warfare, 
where we see ambiguity that Russia is trying to create on their 
actions, which makes it more difficult for people to formulate 
policy and then address that policy with having clarity, so 
thank you for the clarity.
    Ms. Wormuth, I have a few questions for you, because also, 
when your position is policy, what we don't want to have is 
issues of ambiguity of things that are true or not true: facts.
    We can disagree as to policy, but facts are those things 
that we shouldn't allow ourselves to degrade to ambiguity, as 
Vladimir Putin tries to get us to do in hybrid warfare.
    Phased Adaptive Approach; you will not deny that Phase 4 of 
the Phased Adaptive Approach was canceled, would you not?
    Secretary Wormuth. Well, we made a different decision; that 
is correct.
    Mr. Turner. So that would be a yes. You canceled Phase 4 of 
the Phased Adaptive Approach.
    The Phased Adaptive Approach was the portion of Phase 4 
that was to actually protect the continental United States. You 
said we have a strong commitment to the Phased Adaptive 
Approach; not so strong, since it is canceled.
    And I do want to give a footnote here; that we are all 
aware that the fourth phase of Phased Adaptive Approach, which 
you cited as being a strong commitment, was canceled after the 
election, prior to the--with the President having had a prior 
conversation with Medvedev in an open mike situation, where he 
said to him, after the election I will have more flexibility 
with respect to the Phased Adaptive Approach, in what many 
people, including myself, refer to as the secret deal, then has 
the appearance of the President making a deal with Russia and 
subsequently canceling the Phased Adaptive Approach, which, 
again, underscore, would have protected the mainland of the 
United States.
    And let's refer to START. You cited START. You would not 
deny, right, that the United States, under START, cut our 
deployed nuclear weapons, correct?
    Secretary Wormuth. The New START negotiations lowered the 
number of nuclear weapons in our arsenal; yes.
    Mr. Turner. Great. You will also not deny that it did not 
require Russia to cut any of their deployed nuclear weapons. In 
fact, they have had the ability to increase the number of their 
deployed nuclear weapons; correct?
    Secretary Wormuth. Congressman----
    Mr. Turner. Correct; right? Yes, no; it is a numbers game. 
These are not ambiguity issues. These are not policy for us to 
have a disagreement. Doesn't the numbers in START not require 
Russia to cut any of their nuclear deployed weapons and 
actually would permit them to increase them?
    Secretary Wormuth. The New START treaty protects our 
interests.
    Mr. Turner. Yes? No? It is yes/no. Please don't give me 
ambiguity. Please don't have, right where we are here in the 
middle of this hearing, a question answered where you leave 
people with an impression other than the truth. The truth is 
under START we cut our deployed nuclear weapons, they don't. 
Correct?
    Secretary Wormuth. We cut our nuclear weapons but not to a 
level to which we couldn't provide a very strong nuclear 
deterrent.
    Mr. Turner. I didn't ask that. Under the numbers under New 
START, they have the ability to increase, we had to cut. 
Correct? I mean, you have to know this. Don't leave us with the 
impression that perhaps you don't know the circumstances.
    Secretary Wormuth. Correct.
    Mr. Turner. Correct. Thank you for giving me that correct.
    Now Russia, at the time of the discussions with us on the 
New START agreement, was violating the INF [Intermediate-Range 
Nuclear Forces] treaty. Correct?
    Secretary Wormuth. Congressman, we raised Russia's 
violation of the INF treaty in 2013.
    Mr. Turner. I am not asking you what you raised. I am 
asking you a correct or not correct. During the New START 
negotiations with the United States, Russia was, at that time, 
in violation of the INF treaty. Correct?
    Secretary Wormuth. We had concerns that they were in 
violation. We know now that they were.
    Mr. Turner. I am not asking you what your concerns at the 
time were. We now have information, we know it clearly. So----
    Secretary Wormuth. Yes, we know now that they were in 
violation.
    Mr. Turner. Russia was violating the INF treaty at the same 
time that we were negotiating START. Correct?
    Secretary Wormuth. Correct. We know that now.
    Mr. Turner. Thank you.
    Now you started to say you had concerns, so you knew that 
it was--that there was a possibility that they were violating 
the INF treaty at the time of New START [Treaty].
    Secretary Wormuth. Congressman, we had not determined that 
they were in violation.
    Mr. Turner. No, no. I am asking you. I am not asking we; I 
am asking you.
    Secretary Wormuth. I was not in a portfolio at that time to 
personally be aware but----
    Mr. Turner. Did you have concerns of the information--did 
you receive information that gave you concerns about their 
possible violation of the INF treaty?
    Secretary Wormuth. At that time, we had not determined that 
they were not compliant.
    Mr. Turner. You had--you personally had no concerns? You 
personally had no concerns?
    Secretary Wormuth. At that time, I was not involved in that 
particular issue, Congressman.
    Mr. Turner. Okay. Could you please tell me why the 
President of the United States refuses to acknowledge that 
Ukraine has been invaded by Russia, when they have invasion 
forces on the ground? What is the term invasion that causes 
difficulty with the administration? I mean, Ukraine's 
territorial integrity has been violated. Russian troops are 
there. Why can't we call it an invasion?
    Secretary Wormuth. Congressman, I think we have been more 
focused on what is happening as opposed to what you call it. 
Russia has absolutely violated Ukraine's territorial integrity 
and has attempted to unlawfully annex Crimea.
    Mr. Turner. Mr. Chairman, thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    General Breedlove, if we arm Ukraine, what will Russia do?
    General Breedlove. Congressman, it is a great question. It 
is one that we are all working very hard on now. Clearly, we 
don't know what Mr. Putin will do. What we need to do is look 
at what is on the ground, the capabilities and capacities that 
he is building, and make inference from those capability and 
capacities. Right now, we are not arming the Ukrainians with 
lethal weapons.
    And what we see is Russia continues to build their force, 
continues to provide capability to the Eastern Ukrainians. And 
so no--the fact that we are not doing now is not changing their 
path forward. So I think that we have to be cognizant that if 
we arm the Ukrainians, it could cause positive results, it 
could cause negative results, but what we are doing now is not 
changing the results on the ground.
    Mr. O'Rourke. But bottom line, I take your answer to be we 
do not know what Russia will do should we arm Ukraine.
    And Ms. Wormuth, would that be your answer, as well?
    Secretary Wormuth. Congressman, certainly, we don't know 
with certainty how Russia would respond. And I also would add 
that in addition to thinking about whether to provide defensive 
lethal assistance, we also--there are other measures we can 
take to try----
    Mr. O'Rourke. I understand, but the proposal on the table 
in terms of arming Ukraine should beg the question what will 
Russia do, then what are our options when Russia does any 
number of different things and what are the second, third, 
fourth, fifth order of consequences of arming Ukraine. That is 
what I am trying to get to. I understand some of those 
considerations probably should not be discussed here, but I 
think, bottom line, we don't know what Russia will do.
    The information I have shows that we spend a little under 4 
percent of our GDP [gross domestic product] on our Armed 
Forces; Estonia, 1.9 percent, Latvia, 1 percent, Lithuania, .8 
percent, France, a little over 2 percent. Are we not, Ms. 
Wormuth, creating a moral hazard for Europe and especially for 
these Baltic States? What are you doing, what is the 
administration doing to get our NATO allies to spend a more 
significant percent of their budgets on military so that we are 
not asking our taxpayers to do their job?
    Secretary Wormuth. That is a great question, Congressman, 
and we--a couple things I would say there. First, at the Wales 
Summit, all of the allies agreed to a defense investment pledge 
to work towards providing 2 percent GDP as the standard. So 
that is an important step.
    Mr. O'Rourke. Two percent by when and what are the 
consequences if they don't reach it?
    Secretary Wormuth. I don't know if we put a by when on it. 
But what I would say is----
    Mr. O'Rourke. It is pretty urgent right now. Considering 
everything that we just discussed,
    Secretary Wormuth. I absolutely agree.
    Mr. O'Rourke. I would think there would be a date certain 
that you are going to commit if you want to make sure that we 
are going to be there for you. You have got to carry your 
weight. So there is not a date certain or we just don't know 
what that is right now?
    Secretary Wormuth. We think it may be 2020, Congressman, 
but let me check and get back to you on the specific details.
    Couldn't agree with you more that it is essential that our 
European allies invest more in defense, and this has been a 
longstanding challenge that we have had, frankly, with our NATO 
allies. Many Secretaries have raised this.
    I do think that with everything that is happening vis-a-vis 
Russia right now, but also the threats posed by ISIL, our 
European friends have a greater appreciation for what they are 
truly facing and some of them are revisiting in their own 
parliaments and governments how much they are investing.
    Mr. O'Rourke. So I will just ask that you--I appreciate 
that but I will ask that you give us a definite answer to that. 
You know, I certainly would like that and I think my colleagues 
would like to know that as well.
    Secretary Wormuth. Certainly.
    Mr. O'Rourke. My last question, for General Breedlove, what 
lessons do you take from the 2008 Russian/Georgia war that we 
could apply to what we are seeing today?
    General Breedlove. So the lessons are not good ones. As I 
mentioned just a little earlier in one of my comments, the 
Russian invasion of Georgia in 2008 was accomplished but it was 
not a very clean operation for them. They lost aircraft. They 
lost lives. It was a tough slog for them, and I don't think 
they expected it to be a tough slog.
    And what we have seen is they have been a very learning and 
adaptive force. They have completely cleaned up the issues that 
we saw in Georgia as they went into Crimea. I would love to 
offer you a classified briefing to show you the depth and 
breadth of the way they have corrected their problems, their 
military issues, the way they ran the military piece into 
Crimea. And then just from Crimea to Donbass, or the eastern 
part of Ukraine, they have corrected problems there as well. 
So----
    Mr. O'Rourke. Thank you. I will take you up on your offer.
    I yield back. Thanks.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And Mr. Chairman, Mr. Turner pursued my line of questioning 
with Ms. Wormuth and he did a much better job than I would have 
done. So if it is alright, I am just going to suggest that some 
of us were very concerned about the New START because we saw it 
allow Russia to build up a stockpile of strategic weapons and 
for us to be required to build down.
    And it did not take into consideration the tactical 
capability of Russia, especially in Europe. And in retrospect, 
it appears to me that this Russia reset has been a startling 
failure. And that is a sincere conclusion, and I know it 
doesn't really probably track with your own perspective.
    So I am going to, if I could, switch over to General 
Breedlove here.
    And General, you know, every time you come here I try to 
say something nice about you because I think you--people like 
you that stand out there and give your whole lives for the 
cause of freedom are the noblest among us. And I am just 
wondering how he keeps carrying those stars he keeps--they keep 
putting on him here. It is starting to be pretty good thing for 
such an old guy, you know? But I say that having been in an F-
16 with him during a 360-degree loop, so I had a lot of 
confidence in him at that time.
    But the EPAA [European Phased Adaptive Approach] Phase 2 
was set fully to be implemented this year. Can you just discuss 
the need for increased missile defense capability in your AOR 
[area of responsibility]?
    General Breedlove. Congressman, thank you for that. EPAA 
Phase 2 is on track for delivery capability in 2016 to be 
ready. We see all of the actions on the ground doing well. The 
budget is going well. We may be a month or so behind in the 
construction but we think we are ready to deliver on time for 
that. We see the authorities and everything that we need 
shaping up there. And we also see that the progress on starting 
the next phase in Poland is tracking as well.
    Mr. Franks. Let me ask you now, the Department has 
requested a multi-year procurement authority for the SM-3 IB 
[missile] and that hopefully would achieve critical cost 
savings and production stability. Can you speak to that request 
and its significance or importance?
    General Breedlove. Congressman, my facts agree with yours 
that the proposed way to go forward on purchasing these 
missiles now will save us, I think the number is 14 percent 
across the first buy, and that is significant. And it also 
addresses some of the long-lead-term items, issues that a 
company would be working in to deliver those missiles.
    More importantly to me is that the capability inherent in 
that SM-3 IB is important to the mission that we need to do in 
both of these sites, the site in Romania and the site in 
Poland. And so we hope to stay on track with delivery of the 
capabilities that that missile brings.
    Mr. Franks. I will just ask two last questions and they are 
a little bit eclectic and just give you the time to elaborate 
as you will. Given your area of expertise with the whole 
situation happening in Crimea and Ukraine, number one--first 
question is what would you suggest would be the most important 
policy or strategic initiative we should pursue to contain that 
problem the best that we can, given the circumstances.
    And then number two, completely different subject, related 
to the danger of ISIS and Islamist terrorism in the world. What 
do you consider, as a general, to be the most significant, at 
least strategic approach, that we might have? I know tactically 
we have engaged them very effectively, but strategically, what 
do you think is the most important thing that we are missing 
here, and how significant do you think the failure to 
approach--to address that is?
    General Breedlove. If you will allow me, I will lightly 
remark to the policy and strategy piece, and I might ask the 
Secretary to remark to that. Let me start with ISIS because I 
don't want to run your time out. As we understand the problem 
of ISIS, one of the main things that I think we need to focus 
on is their legitimacy. This caliphate draws to it those who 
would want to come and fight for the caliphate.
    And the incredible information campaign that they have out 
there and other things that just transmits the legitimacy of 
this caliphate, we need to attack it. We understand, and I 
won't go into it here, it would take all your time, those 
elements that make the caliphate real to those who would follow 
it, and I think we attack them in detail.
    The Chairman. The time of the gentleman has expired.
    Mrs. Davis.
    Mrs. Davis. Thank you, thank you, Mr. Chairman.
    Thank you both for being here, for your service.
    You know, we have had a discussion about just the question 
what would Russia do, and I wanted to just be certain and 
clarify there are, obviously, proposals about providing more 
than non-lethal support to Ukraine and that does trigger our 
thinking about their using conventional, perhaps even tactical 
weapons at some point. Can you tell us some more about, you 
know, how that calculation is and sort of the response of the 
Congress and what you would like to see?
    Secretary Wormuth. Congresswoman, in terms--again, we don't 
know with certainty what Russia would do if we were to provide 
defensive lethal assistance. I think what needs to be weighed 
is, again, providing that those kinds of systems, for example, 
might well strengthen Ukraine's ability to defend itself, be 
more effective against Russian tanks, for example. But the 
potential concern that has to be weighed is does Russia then 
double-down and provide even more heavy equipment and just 
escalate the violence, cause more human suffering and continue 
to sort of prosecute its campaign.
    So part of, I think, what we have to look at is whether 
there are other tools that might also impose costs on Russia 
and cause Russia to pause and reevaluate where it is going, and 
do the pros and cons of those other tools, for example, such as 
economic sanctions or other steps that could be taken in the 
financial domain, would they potentially be more effective and 
have fewer downsides. So I think those are some of the issues 
that we need to be weighing as we think it through.
    Mrs. Davis. I think I am asking, too, about how the 
discussions here in the Congress are read in terms of what we 
would anticipate or what we would like to see. I don't know, 
General, if you want to weigh in on that.
    General Breedlove. Ma'am, first, I would echo what the 
Secretary has said and that I think that the important--the 
discussion of defensive lethal aid is very important. It is one 
of the tools. We talk about DIME, diplomatic, informational, 
military and economic, and I think that these need to be 
worked--all worked at the same time. Mr. Putin is putting 
intense diplomatic pressure in Kiev. The information campaign 
is quite impressive. And the--I call it the disinformation 
campaign is quite impressive. Clearly, Mr. Putin is all in when 
it comes to the military element.
    And then he is attempting to put economic pressure through 
energy and recalling loans early, et cetera, on Ukraine. And so 
I think that the discussion about the military element is 
incredibly important, but we also have to continue to bring the 
pressure on all fronts in--across these four areas.
    Mrs. Davis. Okay. Thank you.
    We have talked about our allies providing more defensive 
support. And just going back to your numbers, General, about 
the military personnel at EUCOM, you mentioned 65,000 as a--how 
much are--does that include allied personnel?
    General Breedlove. No, Congresswoman. That is our U.S. 
personnel in European Command.
    Mrs. Davis. And so allied personnel is where in that?
    General Breedlove. That is more--we talk about them more in 
terms of the NATO Alliance and how--what they bring to that 
Alliance. And clearly, the depth and breadth of all of the 
nations of NATO and their militaries is quite significant, but 
the readiness and capability are the things that we are working 
on together to raise that capability in our NATO allies.
    Mrs. Davis. So the fact that you are working on that in 
terms of readiness doesn't necessarily mean that they are ready 
to deploy alongside U.S. troops at this time or in----
    General Breedlove. Ma'am, I would say that they have some 
of the same problems that we have in our military. They have 
forces that are capable and ready right now and others that are 
at a more increased responsiveness.
    Mrs. Davis. Is there a number that you would be more 
comfortable with when you think about adequately staffing EUCOM 
for our current global missions?
    General Breedlove. Ma'am, I would like to come back to you 
on that. I didn't come prepared to talk about growing my 
command. Right now, we are just working on the mission that we 
have, but I would love to come back and talk to you about that.
    Mrs. Davis. Okay. I was going to turn really quickly to 
Afghanistan as well because Secretary Carter is now talking 
about slowing the withdrawal. Do we have the support, again, 
with our partners, in being able to do that? And we can take 
that later for the record.
    Thank you.
    [The information referred to can be found in the Appendix 
on page 87.]
    The Chairman. Thank you.
    It occurs to me that we--nobody can know for certain how 
Putin would respond to us providing weapons. What we can know 
for certain is how he has responded without us providing 
weapons and that hasn't gone very well.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Ms. Wormuth, General Breedlove, thank you for joining us.
    I want to ask, so far, the administration's strategy to 
counter Russian aggression is focused on sanctions. We heard 
senior Russian officials, though, say that Russians will eat 
less food and use less electricity. Just this past Saturday, 
Secretary Kerry said the administration is exploring additional 
sanctions on Russia. Give me your perspective.
    How effective to this point have sanctions been? Will they 
be more effective in the future in changing the Russian 
calculus? And what military options have you suggested to the 
administration to counter Russian aggression in Ukraine?
    Secretary Wormuth. Congressman, on the sanctions and their 
effectiveness, you know, the sanctions that we and the 
Europeans have put in place on Russia are having a very 
significant effect on their economy and that--and those effects 
are growing over time. But I think we would all agree that it 
hasn't changed what Russia has been doing on the ground.
    Mr. Wittman. Give us some specifics about what those 
effects are. I mean, that is a general terminology, they are 
affecting their economy. Tell me, how is it affecting the 
economy? The lives--the daily lives of Russians, it is really 
hurting them? Give us some perspective on what that is.
    Secretary Wormuth. I will try to do that. The value of the 
ruble, for example, has fallen substantially. They are--they 
have very large strategic financial reserves but they are 
having to draw those down to be able to provide fluidity in 
their economy. So the size of those financial reserves are 
shrinking substantially and will continue to do that.
    And I think, you know, we will see that effect happen over 
time, and sort of have a cumulative effect. But again, I think, 
you know, we would agree that despite the significant economic 
costs that are starting to have effects on the Russian 
population and on the oligarchs. You know, we are hearing, for 
example, more dissatisfaction of the oligarchs who to date have 
been very supportive of Putin. They are concerned about the 
impact it is having on their businesses, on their own financial 
holdings.
    But it has not changed so far what Russia has been doing on 
the ground. And that is the great concern we have, and that is 
where there is a need to again look at the overall package of 
cost-imposing strategies towards Russia, and also support to 
Ukraine, to see if we can change the calculus going forward.
    Mr. Wittman. General Breedlove.
    General Breedlove. Congressman, on the military options to 
date, I will talk just briefly to U.S. and to our allies. Both 
U.S. and allies have brought primarily non-lethal aid to the 
table to help the Ukrainian military, and these are well known, 
everything from medical capabilities, food, to probably on the 
high end, our counter-mortar radars that we have delivered to 
them, which are defensive in nature, to allow the Ukrainians to 
understand when they are under attack, et cetera.
    And the change now is that while we are considering, and 
you are deliberating, possibilities of lethal aid, now nations 
are beginning to also do what for nations outside of the U.S., 
I would categorize as training. You recently heard both Canada 
and U.K. announce that they are going in to do training in 
various things.
    In the United States, we have a deep relationship with the 
Ukrainians that was already underway before this all started. 
And we are doing coaching and mentoring. You probably have 
heard and seen reported in the paper today that we have a team 
going in to do medical coaching and mentoring now.
    So, we have non-lethal aid; nations doing training; U.S. 
forces doing coaching and mentoring. And then, of course, our 
Nation is deliberating the next step.
    Mr. Wittman. Very good. General Breedlove, let me ask you 
this, from your perspective. Do you believe that Vladimir 
Putin's strategy is to undermine the credibility of NATO as it 
relates to its Article 5 obligations to protect NATO nations? 
And if so, do you believe that his next move might be to 
Latvia, Estonia, and Lithuania, and trying to destabilize that 
region?
    General Breedlove. Congressman, I think that the main goal 
of Mr. Putin is to divide the West in general; in EU [European 
Union] terms, economically, as you see him try to build his own 
economic union; and also militarily to divide NATO; to try to 
find those cracks, live in them, expand them, and try to bring 
dissent to the conversation.
    So I absolutely believe that is his number one goal. If he 
divides NATO, he gets Ukraine. It would happen.
    As to Latvia, Lithuania, Estonia, I am not sure that would 
be the next targets. He understands what Article 5 means.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    General Breedlove, I am interested in whether you think 
that we have essentially exhausted our means of supporting 
Ukraine with non-lethal aid at this point? And whether that, 
therefore, lethal aid is the next logical step?
    General Breedlove. Congressman, no, I don't think we have 
exhausted the options in non-lethal aid, but I don't think that 
is directly tied to should lethal be the next step.
    Mr. Moulton. I agree.
    General Breedlove. I mean, there is much more that we can 
continue to do. But that doesn't preclude, then, should we also 
consider lethal.
    Mr. Moulton. No, I agree with that point. I am just curious 
whether we have exhausted those options.
    I am also interested in what both from the OSD [Office of 
the Secretary of Defense] perspective and from your 
perspective, would be other avenues of escalation. And I 
understand that some of this may be classified, but if you can 
speak to that for a minute, I would appreciate it.
    General Breedlove. So, Congressman, thank you for that. 
There are other--as we just talked about a few minutes ago. We 
are focused on the military piece of the four pieces of--four 
types of power that a nation has. But diplomatic efforts can 
continue and we can step those up. Informational work--we are 
frankly well behind the Russians in this area. Their 
disinformation campaign is very impressive.
    And then as you know, the debate about will there be 
further economic tools used. That continues to be talked about. 
So, I completely agree that we need to go back at Russia across 
all four elements of national power.
    Mr. Moulton. Great. Ms. Wormuth, do you have anything to 
add to that?
    Secretary Wormuth. No. I think that is a very good 
elucidation of what we are trying to do.
    Mr. Moulton. Okay, great.
    Could you just take a minute to comment for a second on 
your view as to whether the New START was in our national 
security interests or not?
    Secretary Wormuth. Certainly, Congressman. Thank you.
    The New START treaty was in our interest. We were able to 
negotiate with the Russians and come to an agreement as to the 
size of both arsenals. We would not--I mean, fundamentally, the 
only reason to pursue negotiated arms control treaties is to do 
it if it is in the interests of the United States from our 
perspective, for example.
    So, our view was very much that through New START, in 
addition to looking at the overall size of the strategic 
arsenal, it gave us a verification regime. It allowed us to go 
in and have transparency to the Russian arsenal; to have 
predictability in terms of understanding what they are doing 
with that part of their nuclear arsenal. And all of that adds 
to strategic stability.
    So I think the administration's view is very much that the 
New START treaty was in our interest.
    Mr. Moulton. Right. But could you just explain that a bit 
more? Because Mr. Turner raised the question that if the 
overall number of Russian weapons goes up and ours stays the 
same or goes down, it doesn't seem to the sort of casual 
observer that that would be a favorable agreement.
    Secretary Wormuth. Well, again, in terms of the overall 
levels of our arsenal versus the Russian arsenal, there are, 
you know, we do not have exact strategic parity in terms of 
down to the very last number. But what we negotiated through 
New START was a level for both sides that provided for the, 
basically the fundamental soundness of our strategic deterrent.
    So, you know, and it is fair to say that the tactical 
nuclear weapons that Russia had were outside of that agreement. 
But from a strategic nuclear force perspective, the levels that 
we have are ones that very much allow us to provide the kind of 
nuclear deterrent that we need to have.
    Mr. Moulton. Given that--given Mr. Putin's new ambitions in 
Europe, would you say that leaving tactical nuclear weapons out 
of that agreement is a greater concern now?
    Secretary Wormuth. Congressman, I don't think it is a 
greater concern necessarily. I mean, the--you know, it would be 
desirable certainly to convince Russia to be able to reduce its 
overall amount of tactical nuclear weapons. They have a very 
large number. But a country has to be willing to do that.
    That disparity existed before the situation we have now. I 
don't think there is a need to be more concerned about it 
before. I mean, again, I think fundamentally we have to make 
sure that we have the full range of military capabilities to 
deter Russia effectively. And we do that through a combination 
of our conventional force posture and our nuclear force 
posture.
    Mr. Moulton. I think 10 years ago, we didn't expect this 
kind of movement on behalf of Russia.
    Secretary Wormuth. That is certainly true.
    Mr. Moulton. Do you think that we should consider expanding 
our tactical nuclear arms?
    Secretary Wormuth. I think the nuclear deterrent we have 
today very much protects our national security interests. I 
don't----
    Mr. Moulton. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Important questions we will dig deeper into 
in the future.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    Appreciate the panelists being here today.
    First, a question about Lieutenant Nadiya Savchenko. I am 
interested in what we know about her current health and about 
release.
    General Breedlove. Congressman, we don't know as much as we 
would like to know. What we do hear is that she is well cared 
for. It is not an arduous affair. But that is clearly what we 
are being told. We have no indications one way or the other.
    And this is a strong point of constant contact as Ukraine 
negotiates forward.
    Mr. Gibson. I am following that situation very closely and 
appreciate your attention to that as well.
    Question now is really more one of a whole-of-government. 
So Ms. Wormuth, I am interested in your insights with regard to 
your actions in the interagency. And specifically here I am 
asking about the status of political-military cohesion and 
unity within Ukraine and across Ukraine, and the status of 
civil-military relations inside Ukraine. Because really the 
focus, the thrust of the question is: How are we doing as far 
as helping Ukraine strengthen itself?
    Secretary Wormuth. Thank you, Congressman, for that 
question.
    I think we are working very hard across a range of fronts 
to try to help Ukraine strengthen itself. And I think the DIME 
construct is a good way to try and talk about that. So, you 
know, for example, the State Department is engaging at all 
levels, from Secretary Kerry and President Poroshenko, down to 
the level of our ambassador. And we are very much, you know, 
working with them and talking with them about their political 
situation.
    In terms of, you know, as I have said earlier, we have 
significantly increased our security assistance to the 
Ukrainian military. And as General Breedlove mentioned, we are 
providing training. We have something called the Joint 
Commission with Ukraine's military that we have used to talk 
with them about what their requirements are both in the near 
term, but also over the long term as they try to 
professionalize their military.
    On the economic front, we are working to--through the IMF 
[International Monetary Fund] to try to secure additional 
economic assistance. Because obviously, Ukraine has a very 
difficult economic situation as well.
    So I think across all fronts, we are doing a lot to try to 
help Ukraine strengthen itself and be better able to determine 
its own path as a sovereign country.
    Mr. Gibson. So then, more specifically, what I am concerned 
about is certainly the reports that I read and from my 
constituents. I have strong Ukrainian-American communities in 
upstate New York, Kerhonkson and other places, and so I often 
hear of, at times, different approaches in different parts of 
Ukraine.
    So now, I have a geographic question, and how are we 
interacting that maybe helps strengthen and unifying some of 
the geographic differences of opinion as it relates to 
political-military. And then, of course, that question is still 
on the table: Do you have any concerns on the civil-military 
relations inside Ukraine?
    Secretary Wormuth. Congressman, I don't have significant 
concerns about the civil-military situation in Ukraine. I would 
certainly ask General Breedlove if he wants to elaborate on 
that. But I saw our ambassador to Ukraine when I was in Munich 
just a few weeks ago, and the report I had from him was that 
those relationships are pretty strong.
    I was also struck in talking with him about his sense that 
when you drive throughout all different parts of Ukraine, if 
anything, the Russian aggression in most areas has strengthened 
Ukrainian nationalism and--which, you know, again, I think 
gives the lie to the whole idea that somehow this is an 
indigenous movement that is coming out of Ukraine and that 
there are individuals who feel that their, you know, rights are 
at risk.
    I think--you know, he talked about how roads, farmland, 
fences were painted blue and yellow, again, as an expression of 
their strong nationalism.
    General Breedlove. I will just jump on that a little bit, 
and that was a vignette I was going to use. Post-Crimea, prior 
to Donbass, this nationalism was very, very high. I think that 
you would find east of the Dnieper River that it is probably a 
little strained now because of what they have seen. I don't 
think we have targeted any geographic unity, but what we do 
know is that Mr. Putin is trying to drive a wedge in the 
government, and we are trying to help them to fight that.
    Mr. Gibson. That is an encouraging report. And I will 
continue to watch very closely. Mr. Chairman, thank you very 
much.
    The Chairman. Thank you. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. My quick assessment is 
that, for Russia on the economic front, they care about what is 
going on and they can care more. Diplomatically, they don't 
care what people think, and militarily, the West has to find a 
way to get them to care more. And right now, we are not, 
because backing diplomacy with nothing is going to continue to 
get us--you know, we will have Minsk III and Minsk IV and Minsk 
V and still no action out of Russia, in my view.
    General, I want to ask you a question. I was asking you, or 
somebody, at the NATO PA [Parliamentary Assembly], and it is 
simple. I mean, do you think Russia understands the difference 
between a NATO country and a non-NATO country?
    General Breedlove. Congressman, the short answer is yes. I 
believe they do understand what Article 5 means and I think 
they do respect that. But that does not mean that they will not 
reach out to those dense Russian-speaking populations that 
might be in a couple of our border NATO nations to see if there 
is a way to raise and foment unrest there.
    Mr. Larsen. Thanks. And do you think a--would a lack of 
quick NATO consensus on a specific action to counter an Article 
5 violation would preclude any one NATO ally from acting to 
defend Article 5?
    General Breedlove. Congressman, I would just say that I was 
at Wales and I have been at every meeting since Wales. And one 
of the things that was most striking to me is that while we 
have lots of tough conversations--as you know, NATO is not only 
facing Russia to the north and east, but there is a growing 
concern about the south, what is coming across the Med from 
Africa, what is coming out of the Levant and Syria and Iraq. So 
there are lots of things that sort of cause us to have 
conversations about where we should focus.
    But what I was struck by in every meeting since Wales is 
the iron-clad commitment to Article 5 responsibilities and 
defense.
    Mr. Larsen. Ms. Wormuth, what do you think has been the 
primary objective of Russia's military modernization?
    Secretary Wormuth. I think, Congressman, the primary 
objective of military--of Russia's military modernization is to 
demonstrate its vision of itself, which is to be a global power 
on the world stage. And, you know, in the wake of the Cold War, 
Russia's military declined to a significant degree, and Putin 
has very methodically, as General Breedlove outlined, gone 
about rebuilding in many ways the conventional and nuclear 
sides of the Russian force. And I think Putin sees that strong 
military as an important tool in his ability to function in his 
own mind as a global power and to be able to protect what he 
sees as Russia's rightful sphere of influence.
    Mr. Larsen. Well General, talk a little bit about that 
rightful sphere of influence because in your testimony, 
although you didn't cover it in your oral, in your written, you 
discussed the Russian investment in infrastructure in the 
Arctic, and the United States actually chairs the Arctic 
Council starting in April of this year. And Commandant Papp, 
former Commandant of the Coast Guard, is the State Department's 
designee to that.
    Russia is a member of the Arctic Council. I don't imagine 
that is going to get in the way of the Arctic Council doing 
whatever it needs to do. But there is this issue of the Arctic 
opening up, more water days per year, and then you have this 
heavy investment, it seems, from Russia in the Arctic. Can you 
talk a little bit about that?
    General Breedlove. Congressman, just to agree with much of 
what you said, that there is this opening and changing way that 
we might be able to use the Arctic. And frankly, one would hope 
that we could see that as an opportunity and a place that we 
might cooperate. But there are concerns by the NATO nations who 
are along the Arctic--or all of the eight nations of the Arctic 
really are watching what is going on up there, and some have 
more concern than others.
    Clearly, as you state, the Russians are changing the nature 
and capabilities of their infrastructure in the Arctic. This 
could either be for good or not.
    Mr. Larsen. You know what? I have got a question, but I 
don't want to get tapped down by the chairman, so I will yield 
back.
    The Chairman. I appreciate the gentleman's consideration. 
With the largest committee in the Congress, we have got to stay 
on time.
    Gotcha. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman, ma'am, General 
Breedlove. General, thank you for joining me at Robins Air 
Force Base a couple of weeks ago. We have picked up all the 
Georgia Tech stickers and tags that we handed out prior to your 
arrival, but should you choose to come back, we will be more 
than willing to hand them out again. And I hope you will. I 
hope you will join us at Robins or at Moody, but I know you are 
busy.
    And I want to talk about one of the platforms that flies 
out of Robins Air Force Base right now, if I can, and that is 
the JSTARs [Joint Surveillance Target Attack Radar System]. We 
have worked to recapitalize that program over the last several 
years. The Air Force has asked for that. Certainly, want to 
continue that.
    The new budget submission provides funding to keep the five 
additional E-8Cs [JSTARS] that were scheduled for divestment to 
recapitalize the fleet. And just like to hear the battle 
management command and control capabilities of that system, how 
they have benefited in the current fights that we are in, that 
you are directly in control of and that capability.
    And then again, making sure that--understanding the needs 
of that platform. We are going to continue with the 
recapitalization of it to get that ISR platform that--not only 
us, but our allies' needs in these fights.
    General Breedlove. Congressman, thanks for that. And I will 
refrain from the Georgia-Georgia Tech discussion.
    Clearly, the capabilities of this aircraft are key and 
essential to everything that we do. The ability not only to 
have some command and control capability aloft but the other 
part of the mission and looking at the ground, et cetera, et 
cetera. So we are--as I would say that every COCOM [combatant 
commander] that sits here in front of you would tell you that 
these are capabilities we need into the future to be able to do 
not only our ISR business, but our command and control.
    Mr. Scott. Do you consider it urgent? Would that be an 
appropriate word to use with regard to----
    General Breedlove. I think that the demonstration of how 
fiercely we compete to have that capability in our theater 
points to how needed it is. It is a requirement we need.
    Mr. Scott. Well, I look forward to working with you to 
expand that capability. And thank you for your support of 
Robins.
    Ma'am, I want to talk about our NATO allies for a second. 
One of my primary concerns as a husband and a father is that 
when I look at our overall budget picture, within 5 years the 
net interest on our national debt will exceed what we spend on 
national security. And I look at what our NATO partners are 
committed to contribute towards what I would consider global 
security, and I look at what they are contributing and they are 
not living up to their end of the bargain, if you will.
    What do we need to do differently to explain to them that 
while we as the United States want to be a good partner, we are 
perfectly willing to take the lead, we are perfectly willing 
to, on a dollar share, put more in because our economy is 
stronger, but we can't carry all of the weight. How do we get 
our NATO partners to put in what they committed to put in?
    Secretary Wormuth. Congressman, that is a great question. 
And I share your concern, I share concern as a taxpayer and as 
a parent. I have two daughters and was trying to explain to 
them last night what sequestration is. So it is a very good 
question to ask what do we need to do differently, or what more 
can we do, because this conversation about defense investment 
with our NATO allies has been a long-standing conversation.
    And I--you know, I think what we can do is take steps like 
we did at the Wales summit where we got NATO allies to sign up 
to a defense investment pledge. The hard work, though, is going 
to be, going forward, making sure that they do live up to that. 
But what we can do and what we are doing is both raising it at 
the highest levels--this is something that when Secretary Hagel 
met with the German MOD [Minister of Defense] a few months ago, 
he raised it with her. Secretary Carter will be raising this 
with his counterparts.
    But we also can be having very serious conversations, I 
think, with the Europeans about the very real and serious 
security threats that they are facing and how to be able to 
have the capabilities they need to be able to be interoperable 
with us, they simply have to make those investments. And part 
of the defense investment pledge was to say that 20 percent of 
their defense budget should go to investment in major equipment 
systems----
    Mr. Scott. M'aam.
    Secretary Wormuth [continuing]. And more R&D [research and 
development].
    Mr. Scott. I am out of time. If I could finish with one 
statement, Mr. Chairman, if you would indulge me. We can push 
whoever we need to out of a territory. We, as the United States 
with our allies. But at some point somebody has got to hold 
that territory. It is a big world. We can't hold it all. And if 
our NATO allies aren't putting in their share so that they can 
hold their own territory--and I recognize the Ukraine is not 
NATO, with us, but they have to be able to hold their own 
territory. We can't hold every country for them.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. General Breedlove, I 
am wondering if you can talk to the unconventional tactics 
being used by Russia, specifically what is being done to 
counter those? You know, when we look at Ukraine, everyone is--
obviously recognizes that there is no head-to-head or tank-to-
tank battle that is possible between Ukraine and Russia. So I 
am wondering what is being done, whether it is done by the U.S. 
or done by other countries, to assist Ukraine.
    We have talked about lethal assistance but also, with 
regards to training assistance for them to counter these 
unconventional tactics with unconventional tactics and to begin 
to exact a toll on the Russian military that becomes more 
evident to the Russian people beyond the toll that is there 
from the sanctions.
    General Breedlove. Congressman, thanks. And if I could just 
open the question a little bit, too. We talk a lot about the 
unconventional tactics in the military side but I think we have 
to remember that they are being unconventional in diplomatic, 
incredibly unconventional in the information sphere, and then 
they are using those sort of tough tools in the economics, as 
well. So, the ``D'' [diplomatic], the ``I'' [intelligence], and 
the ``E'' [economic] of DIME are all in unconventional 
operations for the Russians. And so we need to help our 
partners to be able to work that.
    Broadly, then, in the military piece, there are three 
things we are helping all of our nations and this is work we 
are doing in the Baltics right now even more so than in 
Ukraine, to preclude this problem in the future, and that is to 
give our nations the ability to understand it is more than 
military, it is normally almost more a ministry of interior 
problem to develop the capabilities to do three things: 
Recognize that we have unconventional warfare going on; 
characterize it as unconventional as opposed to just normal 
issues, political issues in the populace; and then attribute it 
to an aggressor nation if it is being imposed.
    So recognize, characterize, and attribute. And, then, when 
we can do that, we can have other nations to be more involved 
in how we fight that battle. So we are developing right now 
capabilities inside these nations to take those steps and get 
their laws and authorities right inside their own nations to be 
able to attack this when it occurs to them.
    Ms. Gabbard. I have another question with regard to the EU 
but I think that is an issue that I and others on the committee 
would like to hear more about specifically because Ukraine is 
where things are happening and then also how the other Baltic 
States and NATO allies are also preparing.
    With regards to the traffic of foreign fighters and the 
flow between Syria and through Turkey, what is the EU doing and 
what role are you playing in working with them to address that 
issue and the fact that their ability to or their willingness 
to cross-reference names on terror watch lists, for example, 
and to track people who are coming through those porous borders 
in between these EU nations, how is that being addressed and 
improved given these weaknesses have been identified?
    General Breedlove. Do you want me to take this one?
    Secretary Wormuth. Oh, I can. Congresswoman, that is a 
great question. One of the major lines of effort in our 
counter-ISIL strategy is trying to address the foreign fighter 
network problem. There are I think at the last that I read as 
many as 20,000 foreign fighters flowing from more than 90 
countries into Iraq and Syria. So it is an extremely 
significant challenge.
    We are working with the countries in the European Union to 
try to help them--I mean, much as combating some of these 
unconventional tactics to try to help them strengthen their 
laws that govern their border security, that govern their 
travel regulations. We are working with them to try to help 
them strengthen their intelligence organization's ability to 
identify these networks and to identify where the facilitators 
are.
    There is more work to be done but this is a major prong in 
our strategy. It has to be a truly international effort because 
if you only address it in a particular region or within the 
context of Europe, you know, the water----
    Ms. Gabbard. But wouldn't you say a majority of those 
numbers that you threw out are, though, within that region at 
this juncture?
    Secretary Wormuth. Many of them are coming from European 
countries.
    Ms. Gabbard. Right.
    Secretary Wormuth. That is certainly true. We also see them 
coming from places like Indonesia----
    Ms. Gabbard. Right.
    Secretary Wormuth [continuing]. And elsewhere in Asia.
    Ms. Gabbard. But I am--since we are talking about this 
region right now, is Turkey on board?
    Secretary Wormuth. Turkey has been steadily improving. 
There is more work to be done though. Turkey is one of the 
transit points that we are most concerned about. They are 
getting better. They have put more people on their watch list. 
But there is more work to be done with Turkey.
    Ms. Gabbard. Thank you very much.
    The Chairman. Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman. General 
Breedlove, I would like--I think there are a lot of people that 
don't understand the important relationship between U.S. 
European Command and the nation of Israel. Could you brief us 
on some of our commitments to Israel? Maybe some of our mil-to-
mil exercises, that kind of thing. How important is what you do 
to the nation of Israel?
    General Breedlove. Congressman, thank you. Some I can 
discuss here, others I would be glad to come talk to you in a 
classified environment.
    U.S. European Command has been given the mission of 
assisting in the defense of Israel. The most--probably the most 
visible piece of that is our joint work in ballistic missile 
defense and how we would help Israel to do that because of 
their, as you know, strategic depth is not something that 
Israel has and so being able to help them defend that.
    And that is--we have a series of exercises that are some of 
the best that we do in this ballistic missile business. We have 
great exercises in the air defense, Air Force across the board. 
And I think, at that point, I would defer to a more classified 
conversation.
    Mr. Bridenstine. Well, I appreciate that. And another 
question I had is--and maybe this is for you, Ms. Wormuth. If 
we were to go continue through the sequestration process, maybe 
you could help us understand a little bit about how that would 
impact the nation of Israel and European Command and maybe, 
General Breedlove, you could highlight as well, too, because we 
are about to go through a budget process here in the U.S. 
Congress and I, for one, believe we need to get beyond 
sequestration, especially as it relates to our defense forces. 
And we hear all the time about the increased risk. Can you guys 
quantify that for us?
    Secretary Wormuth. Thank you, Congressman. Let me try to 
answer your question there. I think if we return to 
sequestration levels of funding, it will have a profound 
impact--a profound negative impact, I would argue, on what we 
are trying to do in European Command and that in the Europe 
AOR, but also globally.
    You know, at the current level of funding that the 
President has requested, we are able to execute our strategy at 
a manageable risk level, I would argue, but we are already now 
at the point where we don't really have a margin.
    You know, I think you have heard General Breedlove say, for 
example, he is showing American presence through a rotational 
approach as opposed to permanent presence in some cases. And 
under sequestration, we would be forced to look at choices 
between the size of our Army, our Air Force. We would be, just 
as we did in 2013, we would be having to eliminate exercises 
with countries in Europe, for example, potentially Israel. We 
would be facing some very difficult choices.
    And in terms of speaking to the risk in a little bit more 
concrete way, you know, the way I think about it is part of 
what we do is to try to prevent crises from arising and we do 
that through our forward presence. We do that through our 
engagement. Under sequestration, we will have a smaller 
military that will make it difficult for us to maintain that 
presence. We will have a military that will be less ready and 
less able to respond to crises. If we were to get in a major 
conflict, that conflict would extend far longer than we want it 
to be, it would be higher casualties, so there are very 
substantial, real-world implications to that kind of risk.
    Mr. Bridenstine. And, General, I can tell you would like to 
answer this as well, but I would like to move on to one last 
question with my one remaining minute. We know that, you know, 
Iran is continuing with an ICBM [intercontinental ballistic 
missile] program. We know that Hamas and Hezbollah are 
reconstituting their missile capabilities. ISIS, of course, is 
in the region. My question is this. What did the administration 
go through as far as a process to determine in its budget 
request that it was appropriate to cut $150 million from 
missile defense for Israel?
    Secretary Wormuth. Congressman, I don't have the figures at 
my fingertips in terms of what level of cuts we made. As 
General Breedlove indicated, we are supporting Israel very 
robustly through programs like Iron Dome, David Sling, the 
Arrow program and----
    Mr. Bridenstine. Just real quick, with my 23 seconds, Arrow 
was cut, I think $45 million, David's Sling was cut $100 
million from appropriated levels last year. Any comments on 
that?
    Secretary Wormuth. Well, we are making very difficult 
choices, you know, over--since 2012, we have absorbed almost a 
trillion dollars in reductions to planned defense spending over 
a 10-year period and, in that context, we are having to make 
difficult choices already.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Thank you all for 
being here. General Breedlove, in your opinion has Russia 
achieved an operational capability of its INF Treaty-violating 
ground-launch cruise missile?
    General Breedlove. Congressman, I would really like to talk 
to you about that in a classified environment. And I would--I 
will get on your calendar to do that.
    Mr. Rogers. I would appreciate that. Let me ask this, do 
you agree with Chairman Dempsey that Russia's INF systems pose 
a threat to our deployed forces in Europe?
    General Breedlove. Yes, sir, I do.
    Mr. Rogers. And what is your best military advice about the 
response most likely to assure our allies and to prevent Russia 
from attaining military advantage from these actions?
    General Breedlove. Congressman, there are a series of 
things that we can do and some of those were discussed by some 
of our senior leaders in the past days. We need to first and 
foremost signal that we cannot accept this change and that, if 
this change is continued, that we will have to change the cost 
calculus for Russia in order to help them to find their way to 
a less bellicose position.
    Mr. Rogers. A little while ago one of our--my predecessors 
on the dais up here asked you about what would Russia do next, 
in your opinion, if it continues unopposed across Ukraine, and 
they specifically asked if you thought that the Baltics, 
Estonia, Lithuania, would be the next target and you stated 
that you felt that Vladimir Putin fully understood Article 5. 
So what is your professional opinion as to what might be the 
next concern that we would have in that region?
    General Breedlove. Congressman, it is a tough question and 
there are several options available. As I mentioned before, I 
think, first and foremost, Mr. Putin has not accomplished his 
objectives yet in Ukraine, so next is probably more action in 
Ukraine.
    We do see the seeds of issues in Transnistria and Eastern 
Moldova. We do see, as you know, continued pressure being put 
on Georgia and Gagauzia. So there are several places where 
pressure is being brought on these nations to keep them from 
leaning West and so there are options there.
    I do, as I have said already today, believe that Mr. Putin 
understands Article 5 but I do not believe that that would 
preclude Mr. Putin from taking some actions in reaching out to 
the disparate Russian-speaking populations that are in some of 
our easternmost nations in NATO.
    Mr. Rogers. Is it your opinion that if we don't--and I am 
asking your opinion, I don't want to be leading in this 
question. But if lethal aid is not provided by the United 
States, does your best military opinion that the Ukrainian 
military can, in fact, stop the progress of the Russian troops 
across their country? Or can they not?
    General Breedlove. Congressman, in the current 
configuration, I do not think that the Ukrainian forces can 
stop a Russian advance in Eastern Ukraine. And to the degree 
that we can supply help, I am not sure that they could stop a 
Russian advance in Eastern Ukraine even if we supply aid. I 
think that our----
    Mr. Rogers. Lethal aid?
    General Breedlove. Lethal aid, that is correct. 
Congressman, I think that what we are talking about is changing 
the calculus of the decisions that Mr. Putin has to make and 
the cost to him in his internal environment more than the 
external environment.
    Mr. Rogers. You are talking body bags?
    General Breedlove. That is right. I think we should talk 
about raising the cost for Russia in many dimensions, yes, sir.
    Mr. Rogers. Ms. Wormuth--thank you, General. In reading 
your opening statement I was concerned that you made no 
reference at all to INF Treaty violations by Russia, given that 
Secretary Carter right out of the gate has made it clear. This 
is a big problem that we are facing and he takes it seriously. 
Why did you not think it was worthy of mentioning in your 
opening statement?
    Secretary Wormuth. Congressman, that was an--excuse me. I 
don't want to be yelling at you. The fact that it wasn't 
mentioned in my written statement was not an indication that we 
are not deeply concerned about it. They are in violation. It is 
a problem. We have been raising this with them since 2013, 
making clear that their violation is unacceptable, and we are 
quite concerned about it as General Breedlove said. We want to 
continue to try to bring them back into compliance, but if they 
do not do that, we do not want them to have a military 
advantage over us and will look at what responses are 
appropriate to take.
    Mr. Rogers. Great. Thank you.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thanks for your 
testimony today. General Breedlove, I wanted to talk to you a 
little bit about truth in disclosure. I was part of a team to 
stand up Africa Command back in 2007 and 2010. And you 
mentioned the 65,000 assigned to you that includes forces that 
are dual-hatted, components to Africa Command and also forces 
assigned to you as a staff officer.
    Great frustration that, you know, we did not have the 
forces required to include crisis response forces. So I haven't 
been there in a while so just wanted to get your perspective on 
especially with the increasing activity in your theater and 
responsibilities, how is that working and do you see if there 
is a crisis where you need a crisis response team in your 
theater but we also have a Benghazi-like situation in Africa 
Command, how does that work? Have you seen any shortfalls where 
you haven't been able to fill missions?
    And, also, as we are looking for places to gain savings, I 
have heard some of my colleagues talk about how Africa Command 
can just roll back into EUCOM again and, having been a part of 
that, with all you have on your plate, adding another 53 
countries in Africa and the ungoverned spaces and the terrorism 
threat and everything we are doing there, I strongly disagree 
with that. So I wanted to hear your perspectives on that 
proposal as we move forward. Thanks.
    General Breedlove. So there has been some very good news 
since you left in that, as you may or may not heard, we have 
been given the authority at the combatant commander and deputy 
combatant commander level between EUCOM and AFRICOM to move 
forces back and forth without going through the DEPORD 
[deployment order] book process in the Pentagon. So when----
    Ms. McSally. There is a conflict there. How do you have two 
crises at once, something has got to get a priority, right?
    General Breedlove. There is no doubt about that and that 
priority would probably be adjudicated. But what happens is 
that Rod Rodriguez and I can make these decisions now very 
quickly and move the forces back and forth and you had it 
right, almost all the force is in EUCOM, there are some small 
crisis response--forces in AFRICOM but we are free to share at 
a very quick and easy way.
    I completely agree with you about Africa Command and EUCOM 
but for a different reason. In Africa, the growing mission--the 
growing problem with radicals and with terrorists and 
ungoverned spaces in these nations, the focus that AFRICOM is 
able to bring on that is unique to the fact that there is a 
combatant commander assigned to focus on that. And I don't 
think that where the next problem really is going to be would 
be the place that we would want to lose focus.
    Ms. McSally. No, I do agree for the same reasons. Next 
question is we closed down the squadron of A-10s [Thunderbolt 
II aircraft] at Spangdahlem [Air Base] a couple years ago, and 
the squadron that I commanded at Davis-Monthan just deployed 
over to Spangdahlem. You can't make this stuff up. So we are in 
a situation where we are closing down A-10s in Europe and then 
we are deploying A-10s from CONUS [continental United States] 
to Europe. Can we walk through kind of a logic behind that and 
the cost?
    Maybe you don't have that but maybe for the record later, 
the cost of deploying units forward versus having kept them 
there in the first place, and are you seeing value with that 
deployment? And you certainly can't have the squadron from 
Davis-Monthan full time but in a future discussion hindsight, 
should we have just kept a squadron of A-10s at Spang 
[Spangdahlem]?
    General Breedlove. I would defer to the Under Secretary for 
some of the policy piece of that. I would like to say that it 
is clear that the capabilities that these aircraft bring is 
needed. You already know, I think, in the military as a 
combatant commander we try not to prescribe the tool. We ask 
for a capability, and in an anti-armor capability certainly the 
A-10s bring a great capability forward to Spang.
    I have often said that I favor forward-stationed forces. 
When the budget changes and precludes and forces are cut or 
brought down, then it is important that we have the ability to 
bring rotational forces. Rotational forces are only good if 
they have solid fiscal backing in order to be able to deploy.
    Secretary Wormuth. Congresswoman, I would just again go 
back to the figure I cited before, where we, you know, we have 
absorbed just a very, very large set of reductions from what we 
planned just a few years ago. And as General Welsh has 
testified, the A-10 is a great platform and all other things 
being equal, we would like to keep that.
    But in order to modernize the Air Force, which is in 
desperate need of recapitalization, we have had to make some 
tough choices. I think that is what you are seeing.
    Ms. McSally. And my time is expired, but I just say I would 
like a cost analysis of keeping a squadron at Spang versus the 
cost of sending them TDY [temporary duty], which potentially 
could be more costly in the long run. So if we are gaining 
savings, let's make sure we are actually gaining savings. Thank 
you.
    [The information referred to can be found in the Appendix 
on page 88.]
    The Chairman. Thank you. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and thank you General 
Breedlove and Ms. Wormuth for being here. Just a follow-up on 
the A-10 issue, and we all know that it is more than just armor 
that it can devastate. Having sons that actually saw the use of 
A-10s on unconventional forces and the fear factor that placed 
upon them was huge. So I would just, once again, I happen to 
like the A-10s because my kids, who called upon them to protect 
them when danger was close, was phenomenal.
    But getting past that and we've talked about Russia, I 
think, and a lot of this needs to be in a classified setting, I 
agree. But when you talk about ISIS, and particularly forget 
about ISIS but talk about the Islamic extremism that is rampant 
across this world, I start to worry that, you know, we try to 
isolate--you know, we have got European Command, what goes on 
within Europe. Then we have, you know, Africa Command, which is 
under-resourced, obviously. One of my sons actually did a tour 
down in Africa training up Ghanaian soldiers.
    But when you look at the threat, and we had King Abdullah 
here, that really gave us, I think, a very enlightened aspect 
in regards to, you know, the fight is within Islam itself. And 
until I think we identify the fact that is where the fight is, 
that is problematic on strategy.
    But he was saying, and I tend to agree, is that it needs to 
be a coordinated attack across the broad spectrum, and I don't 
know that we have the ability to have a coordinated fight 
brought to the Islamic extremists when you have them parceled 
out by Africa Command, European Command, and what goes on in 
PACOM [U.S. Pacific Command].
    Is there a way to coordinate all of that? Because I worry 
that we are not--and he was talking about that coordinated 
approach in particular.
    General Breedlove. I will allow the Secretary to talk to 
the larger part of the question, but let me assure you that we 
are not doing disparate attacks. I just literally came from 
Kuwait, where all of the leaders, to include our new Secretary 
of Defense, came together to talk about just your issue, of how 
we stay coordinated.
    That area of the world, where CENTCOM, AFRICOM, and EUCOM 
comes together, Rod Rodriguez and Lloyd Austin and I work this 
personally all the time to not allow seams. Again, witnessed by 
what we just did in Kuwait. I will turn the rest of the 
question over to the Secretary.
    Secretary Wormuth. I was basically going to say the same 
thing, Congressman. You see we are also trying to do things 
like have conferences with the chiefs of defense from all of 
the different countries. We have John Allen, who is working to 
bring together all of the coalition countries. So while it is 
certainly true that the membership of the coalition crosses 
EUCOM's AOR, CENTCOM's AOR, AFRICOM's AOR, we have a number of 
mechanisms in place to make sure that we are working together 
and that we are seeing it holistically and comprehensively and 
not through a soda straw.
    General Breedlove. A two-second pile-on. An example. To 
stay unclassified, I won't name the base. So we take off an ISR 
asset and that ISR asset may change two or three times in the 
same mission, who it is really supporting as we gather on 
targets. So this is an extremely well-orchestrated dance.
    Mr. Nugent. And I think that was the biggest concern that 
we have as a committee in regards to what is the strategy. And 
I think that we have been somewhat reluctant in regards to the 
strategy. We are going to hear, you know, on AUMF 
[authorization for use of military force] and what is the real 
strategy going forward. And it is not just ISIS. This is a much 
broader issue of Islamic extremism.
    And until I think the administration actually drills down 
and says the words, it kind of diminishes. And what you don't 
want to do is give credence to the caliphate or ISIL or 
whatever. I think that just creates a bigger problem for us 
when we add legitimacy to that.
    And lastly, just on Ukraine, I would just say--and I agree 
with the chairman--it hasn't worked so far. And I understand 
what happens when we ratchet up and we give lethal aid to the 
Ukrainians. But I had a meeting last night with some Ukrainians 
in an off setting and they are absolutely concerned about their 
loved ones that are still there and what is going to happen to 
them. And these folks are U.S. citizens concerned about what is 
going to happen.
    And so I would think that we have not been very successful 
in predicting Mr. Putin's actions, but I think our inaction is 
more of an appeasement than it is of showing leadership.
    And I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you. I don't want to try y'all's 
patience too long. I do have just a handful of things I would 
like to ask about briefly. Several people asked about NATO 
defense budgets, Wales summit sets a goal 2 percent. General, I 
know you have these conversations with your counterparts all 
the time in NATO.
    So far do you see anybody heading up, and who is?
    General Breedlove. Mr. Chairman, it is a great question and 
I would like to answer it in two ways. Yes, we have seen 
nations, including some of the Baltics that were mentioned 
earlier, who have made a pledge and showed a plan on how they 
will attain their 2 percent spending. Now they are very 
motivated. Other nations also are in the same boat.
    We also, in truth, have seen a couple of nations whose 
administrations have changed. Remember this was national 
leaders that made this commitment and those national leaders 
have changed and we see a little regression in a couple.
    Let me not try to pump sunshine but point out a few good 
things, and that is, separate from the 2 percent, also 
important is that their militaries step up to the mission we 
need to do. Defense starts at home. And as we have made these 
three basic changes in NATO as a function of the Readiness 
Action Plan, RAP, we are standing up the Very High Readiness 
Task Force. We needed three or four nations to be center 
brigades for that task force. We got six volunteer nations to 
step up to that in our recent defense ministerials.
    As we stand up these six new units in our easternmost 
nations, they are NATO Force Integration Units--we jokingly 
call them nephews--they will be receiving an onward moving 
capability of NATO nations in these countries. And we have 
strong pledges, again, for the manning and standing up those 
units.
    And then last but not least, the fundamental change in what 
we are going to expect from the Multinational Corps Northeast 
in Stechin, Poland, which will take on that Article 5 
responsibility in the east and the north, strong manning 
conference and a strong pledge by the three framework nations, 
including us, the United States, stepping up our participation 
in that headquarters to bring it to capability.
    So I painted a long picture, but the bottom line is we also 
ask them to step up with their forces, and to this point they 
are answering, Chairman.
    The Chairman. That is helpful. Thank you. One issue that I 
don't believe has come up today is the threat of Islamic 
infiltration through the Mediterranean. So we all saw or knew 
of this horrible beheading of Coptic Christians on the coast of 
Libya. There is clearly an ISIS presence there. I read that the 
Italians are quite concerned about what is going to come up 
from the south.
    Is NATO considering naval patrols of some sort to deal with 
this threat? Or is it a real threat, I guess?
    General Breedlove. Chairman, it is a real threat and it is 
one of the primary concerns of our southern NATO nations. I 
think you heard me mention a little bit earlier that coming out 
of Wales and every meeting since we have had a strong 
recognition that we have to adapt NATO to be able to react to 
the north and east and the problem with a revanchist Russia, 
but we also have to look to the south because we have a 
multifaceted problem in the south. From migration flows, 
organized crime, terror, all the problems that are occurring in 
the ungoverned spaces in northern Africa are bleeding across 
the Mediterranean in the south.
    And as a part of the tasking I was given in my other hat as 
the Supreme Allied Commander of Europe, we have to deliver a 
plan for addressing that. We will deliver that on the 31st of 
March. We delivered first the plan to address the north and the 
east, and next we will deliver our papers to look at the south 
threat as well. And you are right, Chairman, this is a 
multifaceted approach to include naval applications.
    The Chairman. If I were in some of those nations, I would 
be concerned about how long that is taking to get a plan 
because these folks seem to move really quickly. I think you 
may have answered this, but other than budgetary 
considerations, your preference would be to have a permanent 
stationing of forces in Eastern Europe rather than a rotational 
one, is that correct?
    General Breedlove. Chairman, yes.
    The Chairman. And it would be those Eastern European 
countries' preference as well.
    General Breedlove. Chairman, if I could back up and clarify 
what I just said. I am in favor of permanent stationed forces 
in Europe. I think that the discussion of in our easternmost 
nations this is a different discussion for all of the reasons 
that you understand. Does that answer?
    The Chairman. We need to go country by country as to their 
preferences. That makes sense.
    Ms. Wormuth, lots of discussion about arms control and 
tactical nukes and so forth. But isn't it true that the Russian 
public doctrine is evolving to include the potential use of 
tactical nuclear weapons against even conventional forces? So 
that this potential danger by these tactical nukes that were 
not included in New START is taking on a little bit of a 
different enhanced meaning?
    Secretary Wormuth. Chairman, I think it is fair to say that 
Russia is in the process of evolving its doctrine in some very 
important ways. I would prefer to talk to you about that in a 
classified session and would be happy to do that, but I think 
it is fair to say in an open hearing that they are making some 
doctrinal changes that are concerning to us and that we need to 
take into account as we look to how we are going to deter 
Russia going forward.
    The Chairman. Well, I am just referring to some of the 
things they are publishing openly. Now obviously there are 
other conversations to have as well. Last question I have got: 
General, you mentioned in answer to one of the questions that--
talking about what the Russians learned from the Georgian 
invasion, and you said the Russians are a learning and adaptive 
force.
    My question is, are we? And especially as we see these 
hybrid tactics and all that in this theater Russia is using to 
advance their national interest, seems to me it presents us 
some really difficult challenges. And from where you sit, are 
we learning and adaptive to deal with these new challenges that 
try to strike at some of our weaknesses?
    General Breedlove. Chairman, I would like to assure you 
that, yes, we are learning and adaptive. And I am encouraged by 
some of the things that even our young people have helped us to 
understand and how do we approach some of these hybrid 
challenges we see.
    There is a lot of mystique around this word ``hybrid 
warfare.'' All it really is is a different way to use tools 
that we have known about forever. The things that they bring to 
the table and use in a more--in a way that creates ambiguity.
    And so how we address those ambiguities are very important. 
And so that I don't give away some of the more, I would say 
very ingenious ways that our young folks have worked, we will 
make those available to you. But the bottom line is, yes, sir, 
we are a learning and adaptive force.
    The Chairman. Well, I hope we are in a timely way. Because 
it is whether we are talking about the threat from terrorism, 
whether we are talking about what the Russians are doing, or a 
number of other threats around the world, adversaries seem to 
be moving very quickly, looking for those asymmetric advantages 
that they can gain against us and looking for our weak spots.
    And one of our weak spots is we don't do very well with 
somebody who lies and cheats and does all the things that we 
have seen coming out of the Russians. But that is the world we 
live in and we have to adapt.
    Thank you both. We have touched on a lot of subjects today. 
I very much appreciate your being here and appreciate the 
seriousness of the issues which confront each of you as well as 
this committee.
    And with that the hearing will stand adjourned.
    [Whereupon, at 12:23 p.m., the committee was adjourned.]

     
=======================================================================



                           A P P E N D I X

                           February 25, 2015

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 25, 2015

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 25, 2015

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Secretary Wormuth. Yes, we are providing Ukraine intelligence. I am 
happy to provide greater fidelity in a classified setting.   [See page 
14.]
    Secretary Wormuth. The U.S. missile defense systems previously 
planned by the President Bush Administration for deployment in Europe, 
and the systems now planned and being deployed to Europe, were never 
designed or intended to defend against threat missiles launched by the 
Russian Federation.
    The ten Ground-Based Interceptors (GBIs) that were planned for 
deployment to the Republic of Poland and the long-range discrimination 
radar that was planned for deployment to the Czech Republic, the 
combination of which was known as the ``Third Site,'' were never 
intended or designed to counter Russian strategic systems.
    In 2009, we replaced the Third Site with the European Phased 
Adaptive Approach (EPAA), which is intended to be phased to match 
advances in our missile defense technology and to be adaptive to 
changes in the threat. There are three phases planned for EPAA. Phase 1 
has been operational since 2011. It consists of an AN/TPY-2 radar in 
Forward-Based Mode that is deployed to Turkey; a multi-mission, 
Ballistic Missile Defense (BMD)-capable Aegis ship in the eastern 
Mediterranean, which is forward-deployed to Rota, Spain; and the 
Command-and-Control Battle Management and Communications (C2BMC), which 
is the command-and-control network for the BMD system. Phase 2 is on 
track for completion by the end of 2015. It will add an Aegis Ashore 
site in Deveselu Base, Romania, equipped with the SM-3 Block IB missile 
to the current Phase 1 systems. Phase 3 will be completed in 2018 and 
will provide coverage for all of NATO Europe. It will add an Aegis 
Ashore site in Rzedikowo, Poland, and also consists of software and 
hardware upgrades to the existing Aegis Ashore site in Romania and the 
deployment of a new variant of the SM-3 missile, the Block IIA.   [See 
page 14.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS
    General Breedlove. Since last appearing before the committee, the 
United States has chosen to slow its withdrawal of troops from the 
Islamic Republic of Afghanistan. Our North Atlantic Treaty Organization 
(NATO) Allies and partner nations are currently staffing the options 
internally and are waiting on the associated detailed plan for the U.S. 
drawdown in 2016 in order to make an informed decision on their way 
forward. While we won't have any assurances, national force 
contributions are confirmed in June 2015. We believe the majority of 
nations will continue to follow our lead as they have done for the past 
several years. However, several of our Allies and partners are reliant 
on the unique enablers that we provide in Afghanistan, and their 
commitments to stay longer could be contingent upon these enablers 
remaining. Some of these countries are also reliant upon distinctive 
authorities provided by Congress such as the Coalition Readiness 
Support Program, Global Lift and Sustain, and section 1207 to deploy 
into theater and sustain interoperability with United States and NATO 
forces. The early U.S. decision on continued troop levels in 
Afghanistan will assist the U.S. and NATO to work with the Framework 
Nations and the force generation process to resource and stabilize 
troop levels in calendar year 2016.
    It's important to mention that in no other region of the world does 
the United States find more willing, capable, and reliable partners for 
global military operations than in Europe. Some specific points 
highlighting this commitment include:
    Historically, European Allies and partners have contributed 88 
percent--92 percent of non-U.S. forces deployed to Afghanistan.
    Since 2003, European Allies and partners have contributed more than 
275,000 personnel to operations in Afghanistan. These very significant 
troop contributions reduce operational demands on U.S. forces and 
enhance the legitimacy and credibility of U.S.-led military operations.
    In particular, some of our newer Allies and partners have 
consistently shown the political willingness and military capability to 
fight alongside U.S. forces. Unfortunately, our increased shared 
security requirements are occurring while our security cooperation 
efforts such as Foreign Military Financing have been dramatically 
reduced. These countries reliance on former Soviet-era equipment 
further exasperates our ability to effectively sustain these very 
strategic partnerships.
    European Allies and partners account for 36 of the 41 troop 
contributing nations to the RESOLUTE SUPPORT Mission (RSM) and over 
5,000 personnel (as of April 2015), which comprises 92 percent of non-
U.S. forces in RSM.
    European Allies and partners provide critical capabilities to RSM, 
including leadership of Train, Advise, Assist Commands, Afghan National 
Army/Police training teams, and special operations forces that conduct 
counter-insurgency operations.   [See page 24.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. McSALLY
    General Breedlove. This is a complicated question that is very 
difficult to quantifiably answer. European Command (EUCOM) has reached 
out to the U.S. Air Force to get their help in answering this question 
as they the services maintain the costing data to answer this question. 
The RAND Corporation addressed a similar question in their 
Congressionally mandated, Overseas Basing of U.S. Military Forces 
report in which they concluded, ``If the sending base is closed 
(greatly increasing the savings), substituting full rotational presence 
(12 months out of the year) for permanent presence sometimes saves 
money, sometimes costs money, and sometimes roughly breaks even, 
depending on the service, unit type, region, frequency and length of 
rotations, and equipment policy options (transporting versus 
prepositioning unit equipment). In particular, achieving extensive 
presence through high-frequency, short rotations would greatly increase 
costs, leaving longer rotations as the only option that enables some 
savings or avoidance of increased costs while maintaining high 
presence. If only partial, rotational presence is substituted for 
permanent presence, then, depending upon the rotational design, savings 
can be more substantial. In other words, we found no single, definitive 
comparison for permanent versus rotational presence. Each case must be 
examined individually.'' We agree with the RAND report--there are 
numerous factors in determining the cost of permanently stationed 
forward-based force against a rotational force.   [See page 38.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 25, 2015

=======================================================================

          

                   QUESTION SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. General Breedlove, Poland, Germany, and Turkey are all 
considering PATRIOT for their Air and Missile Defense requirements, 
Congress recognizes that in the United States, selection of PATRIOT 
would send a strong signal of trans-Atlantic commitment from our North 
Atlantic Treaty Organization (NATO) allies.
    General, how would Poland, German, Turkey selection of PATRIOT be 
perceived in your area of responsibility?
    General Breedlove. The United States maintains a Global Response 
Force, including PATRIOT missile units, which is capable of rapidly 
deploying to respond to a range of worldwide contingencies. These 
United States forces, along with the capabilities of North Atlantic 
Treaty Organization (NATO) Allies, provide flexible options to defend 
our NATO Allies in the event of an imminent threat.
    Heavy global Combatant Command demand for ballistic missile defense 
forces has the U.S. Patriot force stretched to capacity. Thus, the 
future acquisition of these forces by our Allies will address critical 
shortfalls in NATO capability, alleviate the burden on overstretched 
U.S. PATRIOT forces, send a clear signal of cooperation, recognize the 
need to generate modern defense capabilities, and demonstrate a 
commitment to protect our strategic interests.
    Current proposals for PATRIOT systems are being reviewed by the 
Governments of Poland and Turkey, and European Command (EUCOM) is 
working with the Department of State and the Department of Defense to 
advocate for the selection of PATRIOT. In the context of Turkey and 
Poland, the level of technology transfer to improve domestic industrial 
capabilities, the participation by those nations in the continued 
development of PATRIOT technology and the long term commitment of the 
United States to continue development of the PATRIOT system are 
critical considerations. Turkey and Poland are important regional 
partners for EUCOM, and hold significant influence in regional 
security. Acquisition of Patriot by these nations would be an important 
signal to their regional partners and other NATO Allies that could lead 
to additional, potentially multilateral, acquisition of a similar or 
complementary capability. With regard to Germany, they are currently 
equipped with PATRIOT and are ably employing this weapon system 
alongside the United States and Spain in NATO's Operation ACTIVE FENCE.
    All acquisitions of capable and interoperable air and missile 
defense systems work to strengthen the collective defensive capability 
available to the Alliance to defend NATO populations, territory, and 
forces. This growing capacity should give pause to those who would 
potentially use air and missile systems against members of the 
Alliance.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. The United States manufactures a number of weapons 
systems that our allies in Europe can utilize to offset the military 
advantages of Russia. Countries like Poland are increasingly looking to 
proven weapons systems, such as the PATRIOT Air and Missile Defense 
System, which are maintained and modified right here in America at 
Letterkenny Army Depot in my district. In light of this, how do you 
believe we can best utilize our organic industrial base to assist 
allies our allies in the region?
    Secretary Wormuth. The United States has a strong domestic 
industrial base that is a global leader in the development of advanced 
technology and is well-placed to assist Allies and partners in Europe 
with emerging requirements. Once specific needs are established, the 
Department of Defense works with industry and the potential customer to 
develop a responsive and competitive offer that leverages our unique 
capabilities. As with all cases, any weapon systems cooperation efforts 
with our Allies and partners will consider the best use of U.S. 
domestic shipyards, depots, and arsenals to maintain and modify those 
systems, and also must comply with national laws and regulations. We 
are committed to doing all we can to continue supporting our defense 
industrial base.
    Mr. Shuster. Ms. Wormuth, how would you characterize U.S.-Russian 
relations? Would you call President Obama's ``reset'' policy a success?
    Secretary Wormuth. The Russian Federation's military capabilities 
and modernization, coupled with its ongoing violations of its 
neighbors' sovereignty, are undermining stability and security in 
Europe and threatening the international order. Russia's actions of 
concern include the ongoing occupation and attempted annexation of 
Crimea, its occupation of the territories of South Ossetia and Abkhazia 
in Georgia, and violations of its international obligations under 
nuclear and conventional arms control agreements.
    The Administration's reset policy netted positive results before 
Russia chose its current course. Under the reset policy, we cooperated 
on the Northern Distribution Network, a series of logistics 
arrangements connecting Baltic and Caspian ports with Afghanistan via 
Russia, Central Asia, and the Caucasus; agreed to reduce nuclear 
weapons and their proliferation with the New Strategic Arms Reduction 
Treaty and a 123 Agreement on the Peaceful Use of Nuclear Energy; 
obtained Russian cooperation in the United Nations for our actions in 
Libya; and jointly agreed to eliminate Syria's chemical weapons 
stockpiles.
    Mr. Shuster. In response to continued Russian violations of the 
Intermediate-Range Nuclear Forces Treaty, Secretary of Defense Ash 
Carter recently stated ``U.S. responses must make clear to Russia that 
if it does not return to compliance, our responses will make them less 
secure than they are today.'' How do you think the United States should 
best respond to these violations, and do you believe that the United 
States should continue to abide by the treaty if the Russians will not?
    Secretary Wormuth. The Department of Defense continues to support 
efforts to convince the Russian Federation to return to compliance with 
the Intermediate-range Nuclear Forces (INF) Treaty while protecting the 
security interests of the United States and our allies and partners. 
The security of the United States and its allies is not negotiable.
    The INF Treaty benefits the security of all of the Treaty parties, 
including the United States and the Russian Federation. The INF Treaty 
also benefits our allies and partners in Europe and Asia. For that 
reason, we are continuing to comply with the INF Treaty while we 
determine whether we can convince Russia to return to compliance with 
it. However, our patience is not without limits, and we are considering 
an array of responses that would seek to ensure that Russia gains no 
significant military advantage from its violation.
    If Russia does not come into compliance, it will ultimately require 
the United States to take action to protect our interests and security 
along with those of our allies and partners. Those actions will make 
Russia less secure. Some of those options are INF Treaty-compliant, and 
some are not.
    Mr. Shuster. Ms. Wormuth, the United States continues to reinforce 
our commitment to our NATO allies through the use of Operation Atlantic 
Resolve, which increased United States military rotational deployments, 
and the European Reassurance Initiative, which provided $1 billion to 
reassure and build partner capacities. Should our support to the region 
expand beyond our NATO partners to countries at risk of illegal 
occupation and if so, what should be the extent of our assistance?
    Secretary Wormuth. OPERATION ATLANTIC RESOLVE (OAR) is a 
demonstration of our continued commitment to the collective security of 
the North Atlantic Treaty Organization (NATO) Allies and dedication to 
the enduring peace and stability in the region, in light of the Russian 
intervention in Ukraine specifically. In meeting our global security 
commitments, the United States must have strong, committed, and capable 
Allies, which is why we have fought, exercised, and trained with our 
European Allies for the past 70 years. Aided by the European 
Reassurance Initiative, OAR will remain in place as long as the need 
exists to reassure our Allies and deter Russia from further aggressive 
actions.
    In keeping with our goal of a Europe whole, free, and at peace, our 
support should and does extend beyond our NATO Allies. For example, we 
plan to sustain a significant level of security assistance to Ukraine 
throughout this year. Congress appropriated $118 Million for fiscal 
year 2014 for Department of Defense activities in Ukraine, and in 
fiscal year 2015, Congress appropriated at least an additional $75 
Million for Ukraine. We are also providing additional funds for 
security assistance to Georgia and the Republic of Moldova to support 
their independence, sovereignty, and territorial integrity in light of 
recent aggressive Russian actions.
    The Department of Defense continues to monitor the evolving 
security situation in Europe, particularly along the southern and 
eastern regions, and is prepared to adjust the level of assistance 
necessary to reassure NATO Allies and partners in the region of our 
commitment to collective security.
    Mr. Shuster. Last week, German broadcaster ``ARD'' broke the story 
that German soldiers made an effort to disguise their lack of arms by 
painting wooden broomsticks black and attaching them to their armored 
vehicles during a NATO exercise last year, in an effort to make them 
look like heavy machine guns. Media reports have also indicated that 41 
percent of German soldiers lack pistols they would carry in a genuine 
rapid deployment situation; and 31 percent of their MG3 general-purpose 
machine-guns are absent. Given this information, do you still believe 
our NATO allies in the region are prepared to honor their Article 5 
obligation in the face of major threats such as Russia?
    General Breedlove. I fully believe that every North Atlantic Treaty 
Organization (NATO) Ally is prepared to honor Article 5 of the North 
Atlantic Treaty. However, the general decline in defense spending by 
many NATO Allies is threatening their ability to generate the right 
forces, capabilities, and readiness levels to respond to a changed 
European security environment highlighted by Russian aggression. As 
spelled out in Article 3 of the Washington Treaty, every nation has a 
requirement to be capable of its own defense. Increased defense 
spending on the right capabilities, forces, and readiness is an 
unmistakable signal that NATO is fully prepared for any situation and 
provides a road map to meet our current strategic dilemma in responding 
to aggression in Europe. At the September 2014 NATO Summit in Wales, 
Allied leaders committed to raise and maintain defense spending minimum 
of 2 percent of gross domestic product. Several major European nations 
have announced significant increases in defense spending, and Germany 
itself announced it will increase defense spending by 6.2 percent per 
year for each of the next four years. However, we must remain engaged 
across the board with all our Allies to encourage them to abide by 
their pledge made in Wales.
    Mr. Shuster. You state in your written testimony ``After years of 
force structure and other personnel reductions, fewer than 65,000 U.S. 
military personnel remain permanently stationed in Europe . . . the 
size of our military presence forces difficult decisions daily on how 
to best use the limited resources we have to assure, stabilize, and 
support.'' In your estimation, how many personnel do you believe would 
be optimal to have permanently stationed in Europe given the array of 
threats the region currently faces?
    General Breedlove. The answer is not necessarily how many personnel 
are required but rather what capabilities are needed to meet the 
threats we currently face. United States European Command (EUCOM) 
requires, at minimum, the deferral of previously planned force 
reductions and an increased presence of U.S. forces in Europe through 
stepped-up rotations. These actions close the capacity gap in steady-
state operations, enable building partner capacity and 
interoperability, provide a tangible measure of reassurance to the 
North American Treaty Organization (NATO) allies and partners, and 
demonstrate through unambiguous actions that the security commitment to 
Europe remains unshakable. Subject to the Global Force Management 
allocation process, the Army would augment presence through the 
rotation of continental United States (CONUS)-based units from an 
Armored Brigade Combat Team which is allocated to the NATO Response 
Force. The U.S. Navy could expand its presence in the Black and Baltic 
Seas as would the Marine Corps via its Black Sea Rotational Force. The 
U.S. Air Force would sustain its current air superiority force by 
rotating CONUS-based Air Forces squadrons to participate in Theater 
Security Package training and exercise events along NATO's Eastern 
Flank, and rotating C-130s in support of Mobility Air Force missions. 
Special Operations Forces would expand its presence to increase 
partnership activities in Central and Eastern Europe. Dedicated 
analytic support at EUCOM's Joint Intelligence Operations Center and 
NATO Intelligence Fusion Center would provide timely indications and 
warnings and enhanced exercise planning. With the exception of the 
aforementioned naval forces, these initiatives are currently nested and 
implementing the President 's European Reassurance Initiative.
    Mr. Shuster. General Breedlove, you state ``Russia uses energy as a 
tool of coercion.'' Last month the House passed the LNG [liquid natural 
gas] Permitting Certainty and Transparency Act, which expands export 
opportunities for the natural gas industry to send energy to nations 
like the Ukraine. America is blessed with an abundance of energy 
resources, including massive natural gas reserves such as the Marcellus 
shale, which is estimated to hold about 141 trillion cubic feet of 
technically recoverable natural gas reserves. In what other ways do you 
believe the United States can offset Russia's energy coercion with our 
own resources?
    General Breedlove. As the primary energy supplier to Ukraine and 
the Baltic states, the Russian Federation has the ability to 
unilaterally control the energy market in those countries, and has 
demonstrated on several occasions its willingness to do so. As voiced 
by Secretary of State Kerry, energy must not be used as a political 
weapon, and by opening those markets to U.S. natural gas suppliers at a 
competitive prices, Russia's stranglehold will be meaningfully 
weakened.
    More broadly, we should consider a whole of government approach--in 
collaboration with the Department of State and the Department of 
Energy, for instance--to expand Ukrainian access to energy supplies 
less vulnerable to Russian influence as well as provide technical 
expertise for improving power generation and distribution efficiency.
    (1) Optimize domestic energy production. The United States and the 
European Union have extensive expertise in both coal and nuclear plant 
optimization and could help Ukraine maximize efficiency from existing 
plants. Recent developments in clean coal technologies would be 
particularly useful in an already sizeable Ukrainian coal market.
    (2) Build-up renewable energy. Ukrainian officials are already 
calling for investment in green technologies to take advantage of the 
abundant natural resources in the country, particularly hydro, solar, 
and biomass.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. O'ROURKE
    Mr. O'Rourke. During the hearing, you stated that our NATO allies 
have pledged to bring their defense spending up to 2 percent of gross 
domestic product, in line with NATO requirements, following the Wales 
Summit in September 2014. When must other NATO members reach this 
benchmark to be compliant with the Wales Summit deal, and what are the 
consequences if they do not meet this goal?
    Secretary Wormuth. The pledge states that Allies will seek to 
increase defense spending in real terms as gross domestic product 
grows; and to move towards the 2 percent guideline within a decade. 
More significantly for the near term, Allies spending less than 2 
percent of gross domestic product on defense undertook to halt any 
further decline in defense spending. Allies agreed that progress would 
be reviewed at least annually and discussed at future Ministerials and 
Summits. This is the first time such a commitment has been made at the 
level of Heads of State and Government. It will empower Defense 
Ministers within European coalition governments to fight more 
effectively for adequate funding, with the support of the United States 
and other Allies. While there are no defined consequences for failing 
to meet the goals of the pledge, I will ensure allies who are in danger 
of falling into this category and fully understand the importance the 
United States puts on the pledge's fulfillment, and the high standard 
to which we hold members of the NATO Alliance.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. ZINKE
    Mr. Zinke. Would you argue that a major leverage point against 
Russia is its economic frailty, and to what regard do you think the 
U.S. exporting liquefied natural gas (LNG) to European markets will 
have on Russia's economy and influence in the region. Please give 
describe both short term implications (from the time the LNG is being 
exported) and long term implications.
    Secretary Wormuth. Although the Department of Defense does not have 
responsibility for liquefied natural gas (LNG) market issues, I agree 
that LNG market diversification in Europe would help to limit the 
leverage the Russian Federation has over European customers who are 
heavily reliant on Russian gas supplies, as well as provide alternative 
sources for European nations to ensure they are not reliant on a single 
supplier for their gas needs.
    The United States, in coordination with the European Union and 
other partners, has used targeted sanctions, including in the energy 
sector, to raise the costs to Russia for its actions in Ukraine over 
the past year, and this has had a sharp impact on the Russian economy. 
Over the long-term, Russia's failure to diversify and over-reliance on 
hydrocarbon sales would also have negative consequences, providing an 
important point of leverage on Russia.
    Mr. Zinke. Would you argue that a major leverage point against 
Russia is its economic frailty, and to what regard do you think the 
U.S. exporting liquefied natural gas (LNG) to European markets will 
have on Russia's economy and influence in the region. Please give 
describe both short term implications (from the time the LNG is being 
exported) and long term implications.
    General Breedlove. The diversification of European energy sources 
and supply routes is a longstanding priority of U.S. energy diplomacy. 
Even before the current crisis in Ukraine, the Russian Federation has 
deftly used natural-gas supplies as leverage in pursuing long-term 
goals in the former Soviet space and in Europe as a whole. Growing 
availability of liquid natural gas has given Europe greater leverage in 
negotiations with Russia, and we should continue working with our 
partners on diversifying Europe's supply sources.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
